<html>
<title> - HEARING ON THE NOMINATION OF ALLISON MACFARLANE AND RE-NOMINATION OF KRISTINE L. SVINICKI TO BE MEMBERS OF THE NUCLEAR REGULATORY COMMISSION</title>
<body><pre>[Senate Hearing 112-971]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-971
 
 HEARING ON THE NOMINATION OF ALLISON MACFARLANE AND RE-NOMINATION OF 
KRISTINE L. SVINICKI TO BE MEMBERS OF THE NUCLEAR REGULATORY COMMISSION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 13, 2012

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
  


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
         
         
                              ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-055 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
         
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

                Bettina Poirier, Majority Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 13, 2012
                           OPENING STATEMENTS

Blumenthal, Hon. Richard, U.S. Senator from the State of 
  Connecticut....................................................     1
Boxer, Hon. Barbara, U.S. Senator from the State of California...     3
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...    23
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    25
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..    27
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....    29
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......    34
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    35
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......    36
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland    38
Udall, Hon. Tom, U.S. Senator from the State of New Mexico.......    39
Boozman, Hon. John, U.S. Senator from the State of Arkansas, 
  prepared statement.............................................   217

                               WITNESSES

Macfarlane, Allison, Ph.D., Associate Professor, George Mason 
  University.....................................................    39
    Prepared statement...........................................    41
    Responses to additional questions from:
        Senator Boxer............................................    43
        Senator Inhofe...........................................    45
        Senator Sessions.........................................    48
        Senator Barrasso.........................................    60
    Response to an additional question from Senator Alexander....    63
    Responses to additional questions from:
        Senator Udall............................................    64
        Senator Boozman..........................................    67
        Senator Crapo............................................    69
        Senator Carper...........................................    71
Svinicki, Hon. Kristine L., Commissioner. U.S. Nuclear Regulatory 
  Commission.....................................................    72
    Prepared statement...........................................    74
    Responses to additional questions from:
        Senator Boxer............................................    75
        Senator Carper...........................................    79
        Senator Udall............................................    81
    Response to an additional question from Senator Barrasso.....    85


 HEARING ON THE NOMINATION OF ALLISON MACFARLANE AND RE-NOMINATION OF 
KRISTINE L. SVINICKI TO BE MEMBERS OF THE NUCLEAR REGULATORY COMMISSION

                              ----------                              


                        WEDNESDAY, JUNE 13, 2012

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(Chairman of the Committee) presiding.
    Present: Senators Boxer, Inhofe, Carper, Lautenberg, 
Cardin, Sanders, Udall, Gillibrand, Barrasso, Sessions, 
Alexander, and Boozman.
    Also present: Senator Blumenthal.
    Senator Boxer. We will proceed. And because we know 
Senators have schedules, we will withhold our opening 
statements and allow you to do your introductions. So we will 
start with Senator Blumenthal, please, introducing the nominee 
for Chairman.

         OPENING STATEMENT OF HON. RICHARD BLUMENTHAL, 
           U.S. SENATOR FROM THE STATE OF CONNECTICUT

    Senator Blumenthal. Thank you, Madam Chairman and Ranking 
Member Inhofe. I am very, very honored today to introduce 
Allison Macfarlane, President Obama's nominee to be a 
Commissioner, in fact, Chairman of the Nuclear Regulatory 
Commission. I want to thank the Chairwoman and members of the 
Committee for giving me this opportunity.
    Dr. Macfarlane is a native of Connecticut; she was born in 
Hartford, raised in Avon, went to Avon High School, which is an 
area just a few miles north and west of Hartford, our capital. 
And I would like to say that is her most important distinction, 
but actually, as you know, she is a geologist of national, 
indeed, international stature, and I think supremely well 
qualified to head the Nuclear Regulatory Commission at this 
critical point in its history and our nation's.
    She is a remarkable scholar and leader, and a person of 
genuine vision and courage, and she has been an Associate 
Professor of Environmental Science and Policy at George Mason 
University since 2006, but she has been in a variety of 
academic positions at Harvard, Stanford, and other universities 
before the one that she has now.
    She has also served on the Blue Ribbon Commission 
established by the President, 15-member commission which 
produced a report very recently that addresses one of the 
principal challenges for the NRC in coming years: to develop an 
integrated nuclear waste facility management program and make 
sure that we move from spent pools to dry casks in as many of 
our nuclear facilities as possible. This issue is 
extraordinarily important to Connecticut because of our 
Connecticut Yankee and our Millstone plants, where some of our 
fuel is still stored in pools and where we have a substantial 
amount of nuclear waste, and the interest of Connecticut in 
this issue is very, very profoundly significant.
    Dr. Macfarlane is not only a person of academic and 
scholarly distinction, but she is also a person of great 
collegiality and integrity, and I am very proud to introduce 
her to this Committee and to support her for this profoundly 
important position, and I hope that members of the Committee--I 
know they will--will be as impressed as I am by her personal, 
her professional, and her academic distinctions and her 
qualifications for this profoundly important position.
    Thank you very much, Madam Chairwoman.
    Senator Boxer. Thank you, Senator.
    And Senator Sessions is going to reintroduce Hon. Kristine 
Svinicki, Commissioner.
    Senator Sessions. Thank you, Chairman Boxer and Ranking 
Member Inhofe and members of the Committee.
    It is a delight for me to be able to introduce you this 
morning Kristine Svinicki. She is no stranger to the Committee, 
having appeared before us at least five other times in the last 
several years. I have personally known Kristine for more than 7 
years, time enough for me to show and learn what an impressive 
and good person she really is. Let me tell you a few things 
about her.
    She was born and raised in Jackson, Michigan, a mid-sized 
town in the southern part of the State. Her Grandfather 
Svinicki came to America from Eastern Europe to work in the 
iron mines of Michigan. Kristine is the youngest of seven 
children of Amol and Jane Svinicki. Her father was an Army 
veteran of World War II. Although her father never spoke about 
his war experiences, as so often is the case, Kristine and her 
siblings were surprised and very moved to learn, after his 
death, of his multiple commendations for valor in combat, 
including two bronze stars, of which he never talked.
    After the war, Amol Svinicki was the first of his family to 
go to college, attending Illinois Institute of Technology in 
Chicago, studying architecture. Kristine was raised to 
understand that her parents valued education above all else, so 
although she lost both of her parents to illness by the time 
she was 20, she knew that they would want her to finish her 
college degree, which she did, graduating from the University 
of Michigan with a Bachelor of Science in Nuclear Engineering, 
appropriately, in 1988. Since then, Kristine has been a true 
public servant, applying her many talents and keen intellect to 
the benefit of a nation that she loves so dearly, approaching 
now three decades of public service.
    After college she worked for the State of Wisconsin at the 
Public Service Commission, where she learned a lot about 
destruction regulation of electric power companies. From there 
she took a position with the U.S. Department of Energy at their 
Idaho Operations Office, working on nuclear waste programs 
associated with the Department of Energy's Idaho Nuclear 
Laboratory. She eventually transferred to DOE's headquarters in 
Washington. She came to Capitol Hill as a Brookings Institute 
legislative fellow in 1997. She decided to continue working on 
the Hill as a permanent staff.
    I came to know Kristine when she was hired as a staff 
member of the Senate Armed Services Committee in 2005 by 
Senator John Warner, then Chairman of the committee. Chairman 
Boxer and Inhofe will probably recall that Senator Warner gave 
her an especially warm introduction when her first confirmation 
hearing occurred here in 2007. He referred to Kristine as ``one 
of the extraordinary persons'' that he had served with in his 
three decades in the Senate.
    Kristine's work also supported me in my role as Chairman of 
the Strategic Forces Subcommittee and Armed Services. Her 
knowledge of nuclear security and nuclear defense issues, which 
we dealt with, for which she was the lead staffer, was 
acknowledged and appreciated by the staff members on both sides 
of the aisle, and her work was highly regarded. I was very 
impressed. She was one of the best I have ever worked with. I 
valued her opinion greatly.
    In fact, she was still working on the Armed Services 
Committee staff when she was nominated in 2007 by President 
Bush to serve on the Nuclear Regulatory Commission, and her 
nomination was strongly supported by the Senators serving on 
the Armed Services Committee on both sides of the aisle. She 
was confirmed in 2008 by unanimous consent. As a Commissioner, 
she has demonstrated a strong commitment to understanding the 
practical effects of NRC regulation at the facilities that they 
regulate. For example, she has visited approximately half of 
the nuclear power plants in the United States. She takes a 
practical, as well as a theoretical approach to her work.
    The NRC has seen its share of controversy in the past 
several years, and through it all Kristine has exhibited 
tremendous character, professionalism, and courage. Although 
members of her family were not able to travel to Washington, 
DC, to be here today, she has the enthusiastic support of her 
siblings spread across the country, as well as her many nieces 
and nephews, some of whom are tuned into the Webcast, I am sure 
cheering her on today. And I know her parents and grandparents 
would be very proud of her today, as I am and as are many of 
her fellow supporters and friends. She has earned the respect 
of many employees at the NRC who wish her success today and 
very much want to see her return to the Commission for another 
term.
    Thank you very much, Madam Chairman.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thank you very much, Senator.
    So now the Senators are welcome to go on to their next 
activity, and I am sure that the nominees are extremely 
grateful to both of you for your wonderful introductions, and 
we thank you very much.
    We will do our opening statements, and then we will hear 
from, first, Dr. Macfarlane and then Hon. Kristine Svinicki, 
and then we will do some questions.
    Today we consider the nomination of Dr. Allison Macfarlane 
as Chairman of the NRC and the renomination of Kristine 
Svinicki to the NRC.
    The NRC has one critical mission; it is the key Federal 
agency charged with ensuring safety at the nation's 104 
commercial nuclear reactors. Safety. That is the mission.
    Nothing underscores the important role played by the NRC 
more than the Fukushima disaster. That disaster in Japan was a 
wake up call to each of us that safety at our nuclear power 
plants can't be taken for granted and must reflect the lessons 
of Fukushima.
    I want to remind everyone here today what happened in Japan 
about a year ago. A magnitude 9.0 earthquake struck off the 
coast, triggering a tsunami that's reported to have reached 45 
feet high and stretched up to 6 miles in length.
    The Fukushima Daiichi nuclear plant was hit hard. It lost 
power, multiple hydrogen gas explosions tore apart reactor 
buildings, containment structures were damaged, three nuclear 
reactors melted down, and radiation poured out into the 
environment. People's lives were uprooted by evacuations to 
avoid the threat of radiation poisoning. Many of those men, 
women, and children have yet to return to their homes, and some 
may never get back.
    As I reflect on the Fukushima disaster, I think about 
communities in my home State of California. Those communities 
are right close to two nuclear facilities, the San Onofre 
Nuclear Generating Station and the Diablo Canyon Nuclear Power 
Plant. Nearly 8.7 million people live within 50 miles of San 
Onofre and almost 500,000 people live within 50 miles of Diablo 
Canyon.
    The thought of those families facing an unimaginable 
accident even a fraction of what the people of Japan faced 
during the Fukushima disaster makes me even more vigilant about 
safety when it comes to nuclear power. Much more work needs to 
be done by the NRC in the aftermath of Fukushima. As I review 
the activities of the NRC, I feel that within the leadership of 
the current Chairman, we would be even further behind on safety 
than we are.
    I am impressed by the President's nominee, Dr. Macfarlane, 
who brings to this position the critical experience, the 
intelligence, scientific background, and integrity that we need 
so much at the NRC.
    I ask unanimous consent to place in the record statements 
of support for Dr. Macfarlane, including one from the Union of 
Concerned Scientists, which stated, ``We expect her to be a 
strong advocate for practical steps to enhance nuclear power 
safety, and security.''
    In addition, I would like to place in the record the 
Nuclear Energy Institute letter urging us to ``confirm Dr. 
Macfarlane expeditiously.''
    [The referenced documents follow:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Boxer. So, Dr. Macfarlane, I look forward to 
hearing your views on the role of the NRC in ensuring the 
safety of the American people.
    Regarding Commissioner Svinicki's nomination, it should 
come as no surprise that I am deeply troubled by this 
Commissioner's statements at her prior nomination hearing that 
she did not work directly on Yucca Mountain, which she clearly 
did. I also believe Commissioner Svinicki has not demonstrated 
the commitment to safety that the American people have a right 
to expect in this post-Fukushima era.
    Just yesterday--just yesterday--I learned that Commissioner 
Svinicki actively opposed my reasonable request for an NRC 
investigation into how a redesign of the San Onofre nuclear 
plant occurred without proper oversight by the NRC. She did not 
support that request. Now, that plant is shut down, shut down 
due to unexplained deterioration of steam generator tubes 
containing radioactive material. Had Commissioner Svinicki's 
position prevailed, we would have seen stonewalling by the NRC. 
I want to thank Commissioner Ostendorff and Chairman Jaczko for 
not allowing the stonewalling to occur, and I ask unanimous 
consent to place in the record letters of opposition to 
Commissioner Svinicki's renomination.
    Now, one of these was a letter written by 94 organizations 
who said, during her first term as an NRC Commissioner, Ms. 
Svinicki uniformly voted for nuclear industry interests at the 
expense of public health and safety.
    And a letter that came from another set of concerned 
Americans said, ``Since the Fukushima catastrophe began, 
Commissioner Svinicki voted against an advisory committee on 
reactor safety recommendation for measures to address accident 
risk posed by the hotter reactor cores and higher pressures 
associated with power-up rates, against measures to improve 
security screening for personnel gaining access to reactors, 
against measures to increase NRC enforcement direction, 
discretion for reactors that do not comply with fire 
regulations, and against measures to gather more information to 
enhance control of leaks of radioactive materials, and she 
voted in favor of adding further consideration of the cost of 
burden of NRC regulations to industry by requiring NRC staff to 
analyze the cumulative financial impact of all the regulations 
on licenses.''
    [The referenced documents follow:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Boxer. What is key here to me is the safety of the 
people. Now, my two nuclear power plants happen to be located 
on or near earthquake faults and tsunami zones, and all I could 
tell you is this: the burden on the NRC should be taken 
seriously by every Commissioner. The safety of millions of 
people, women, men, children, rests on your shoulders. So for 
me, post-Fukushima, I will be supporting people who I believe 
will put the safety of the people ahead of the special 
interests. That is critical to me.
    So, as we move on, I will be asking questions. The American 
people have a right to expect the best public servants in these 
critical positions.
    I now turn to Ranking Member Inhofe for his opening 
statement.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    One of the Senate's most important responsibilities is to 
offer service and provide consent to the President's 
nominations, and that is what we are doing here today.
    The nomination of Kristine Svinicki to continue to serve on 
the Nuclear Regulatory Commission is crucial, especially as the 
Commission enters a tumultuous time with the lack of 
transparent leadership, while continuing to make important 
decisions regarding nuclear safety. Five years ago she was 
confirmed by this Committee, as was stated in her introduction, 
and in the Senate by unanimous consent, and President Obama has 
taken the prudent step to re-nominate her to serve in another 
5-year term.
    Commissioner Svinicki's qualifications are stellar. Prior 
to her term on the NRC, she had many years of experience on 
Capitol Hill serving as staff on the Armed Services Committee, 
where I serve now as a second ranking member, and I enjoyed my 
service with her at that time.
    In her current role as Commissioner, her contribution has 
been essential as the Commission has worked to unravel lessons 
learned from the Fukushima accident. Commissioner Svinicki's 
perspective was also crucial in finalizing the Commission's 
view of Vogtle and Summer nuclear plants, the first two new 
nuclear plant licenses in over 30 years. Her voting record at 
the NRC shows that she is a conscientious and objective 
policymaker, with a strong dedication to safety. Her 
demonstration, collaborated with her Commission colleagues, 
shows her to be a studious, thoughtful, and compelling, with an 
admirable capacity to produce bipartisan results.
    We are considering also the nomination the nomination of 
Dr. Allison Macfarlane to complete the term of Chairman Jaczko. 
Given the numerous reports of Chairman Jaczko's failed 
leadership to the NRC, it was right of him to resign last 
month. I am glad it happened. By removing himself from the 
distraction of the agency, the Commission can once again focus 
on its mission of nuclear safety.
    It is my expectation that Dr. Macfarlane can step into be a 
valuable member of the Commission. Although I have some 
concerns about perhaps a lack of background in management 
experience, that is something certainly that she will pick up 
quickly, as well as the areas of nuclear safety.
    While she is obviously well informed on the back end of the 
fuel cycle, I hope that her previous research and publications 
won't inhibit her ability to be a fair judge of the licensing 
of nuclear waste repository.
    Despite those modest concerns, I think we can all agree 
that the NRC functions most effectively as a full Commission. I 
am encouraged to hear from her individual meetings with my 
staff that she intends to treat her peers--both fellow 
Commissioners and the general staff--at the NRC as equals and a 
valuable knowledge base, and I am certainly expecting that that 
will happen. I had a chance to visit with Dr. Macfarlane, and I 
probably shouldn't say this in a meeting like this, but I said 
I would like to have kind of the same relationship as I do with 
Lisa Jackson, the Director of the EPA. She has always been very 
honest with me, and while we have disagreements, I am sure we 
will have the same relationship, and I look forward to it.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Thank you, Chairman Boxer, for holding this hearing. One of 
the Senate's more important responsibilities is to offer advice 
and provide consent to the President's nominations.
    The nomination of Kristine Svinicki to continue to serve on 
the Nuclear Regulatory Commission (NRC) is crucial, especially 
as the Commission enters a tumultuous time with a lack of 
transparent leadership while continuing to make important 
decisions regarding nuclear safety. Five years ago she was 
confirmed by this Committee, and in the Senate, by unanimous 
consent, and President Obama has taken the prudent step to re-
nominate her to serve another 5-year term. Commissioner 
Svinicki's qualifications are stellar: Prior to her term on the 
NRC, she had many years of experience on Capitol Hill, serving 
as staff of the Armed Services Committee. She is a nuclear 
engineer dedicated to public service and has drawn praise from 
both Democrats and Republicans.
    In her current role as Commissioner, her contribution has 
been essential as the Commission has worked to unravel lessons 
learned from the Fukushima accident. Commissioner Svinicki's 
perspective was also crucial in finalizing the Commission's 
review of the Vogtle and Summer nuclear plants, the first two 
new nuclear plant licenses in over 30 years. Her voting record 
at the NRC shows that she is a conscientious and objective 
policymaker with a strong dedication to safety. Her 
demonstrated collaboration with her Commission colleagues shows 
her to be studious, thoughtful, and compelling with an 
admirable capacity to produce bipartisan results.
    We are also considering the nomination of Dr. Allison 
Macfarlane to complete the term of Chairman Greg Jaczko. Given 
the numerous reports of Chairman Jaczko's failed leadership at 
the NRC, it was right of him to resign last month. By removing 
himself as a distraction to the agency, the Commission can once 
again focus on its mission of nuclear safety.
    It is my hope that Dr. Macfarlane can step in to be a 
valuable member of the Commission, although I have some 
concerns about her lack of management and nuclear safety 
experience. Additionally, I am concerned with her pre-conceived 
notions of spent fuel disposal. While she is obviously very 
well informed in the back end fuel cycle, I hope that her 
previous research and publications will not inhibit her ability 
to be a fair judge of the licensing of a nuclear waste 
repository.
    Despite my concerns, I think we all can agree that the NRC 
functions most effectively as a full commission. I am 
encouraged to hear from her individual meetings with my staff 
that she intends to treat her peers--both fellow Commissioners 
and general staff at the NRC--as equals and as a valuable 
knowledge base. I sincerely hope she follows through on her 
statements, because that collegiality has been severely 
tarnished in recent years.
    This Committee has a longstanding bipartisan tradition of 
considering nominations in a timely fashion. Nominees have 
historically been given an up or down vote by the Committee the 
week following the hearing. Therefore I am hopeful that a vote 
will be quickly scheduled to avoid an unfortunate lapse in 
service by Commissioner Svinicki.
    Commissioner Svinicki and Dr. Macfarlane, I look forward to 
hearing from you.

    Senator Boxer. Thank you so much.
    Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you, Madam Chair.
    I just want to start my statement with a question of Dr. 
Macfarlane. How do you pronounce your name?
    Ms. Macfarlane. Do you want an answer?
    Senator Carper. Yes.
    Ms. Macfarlane. Macfarlane.
    Senator Carper. Thank you.
    We have never mispronounced Commissioner Svinicki's name. 
Actually, we have the potential to butcher names badly here, so 
I hope we will get your name right. Your name is misspelled, I 
would note that, Dr. Macfarlane.
    I want to welcome both Commissioner Svinicki and Dr. 
Macfarlane to our Committee, and I look forward to today's 
hearing. Quite favorably impressed by the technical breadth and 
depth of our two nominees and by the set of skills that each 
one has already brought and would bring if confirmed to the 
Nuclear Regulatory Commission.
    I am encouraged that the President would move quickly to 
nominate Dr. Macfarlane to serve as Commissioner and to chair 
the NRC. I am also pleased that he submitted the name of 
Kristine Svinicki to serve a full 5-year term on the 
Commission. Hopefully, we can make a decision on both of these 
nominees before June 30th of this year so that the Commission 
will have a full complement of Commissioner and new Chair 
leader.
    I believe that it is important for us to have a fully 
functioning Commission because today the NRC is addressing some 
of the most pressing issues that the nuclear industry has faced 
in years. Clarity and leadership as we face the future are 
critical.
    On this Committee's encouragement, the NRC is reviewing our 
domestic nuclear fleet and implementing lessons learned from 
the Japan Fukushima Daiichi crisis that occurred last year. We 
need to make sure that every precaution is being taken to 
safeguard the American people from a similar nuclear disaster 
here.
    Just a few months ago the NRC approved the construction of 
four new nuclear reactors, an undertaking the United States has 
not witnessed in some 30 years. The events of destruction that 
disabled the Fukushima Daiichi plant last year are a reminder 
that adequate preparation and response planning are vital to 
minimize injury and death when it does happen. In no small part 
because of the hard work of the NRC, there have been no direct 
deaths from nuclear power plant radiation exposure in this 
country.
    While I am a strong proponent of clean energy, my top 
priority for our nuclear power has been and remains public 
safety. The past 11 years I worked with the NRC, my colleagues, 
and the industry to ensure that we build and maintain a culture 
of safety in every one of our 104 nuclear power plants. I 
expect--and I believe the public expects--the NRC to be a 
strong, independent, and effective regulator, a regulator that 
acts prudently, firmly, and decisively; a regulator that acts 
openly and transparently; and a regulator that produces results 
and is worthy of the public's confidence and that of both the 
executive and legislative branches of our Government.
    In sum, the NRC must continue to work every day to ensure 
our nation's health, safety, and security, while also 
endeavoring to protect our environment.
    Commissioner Svinicki has been a member of the Commission 
for almost 5 years now and has appeared before this Committee a 
number of times to answer questions since her nomination. Over 
the course of those years, I have had the opportunity to 
discuss a wide range of nuclear power issues with the 
Commissioner, and while I may not have agreed with her on every 
single one of them, I found her to be knowledgeable, hard 
working, and committed to safety, as well as to ensuring that 
the NRC remains a strong and impartial regulator.
    And while I do not know Dr. Macfarlane, although I do know 
how to pronounce her name now, I welcome the opportunity to 
meet with her earlier this week for a wide ranging conversation 
of issues that have come and will come before the NRC, and by 
the conclusion of that meeting I am encouraged that her 
expertise, her experience, and past leadership on some of the 
most pressing nuclear issues facing our country could bring a 
valuable and unique perspective to the Commission on policy 
issues. I look forward to learning more about her and her views 
on nuclear policy and the NRC today in the days ahead.
    At a time when there are so many challenges facing the 
nuclear industry, I hope that this proves to be a productive 
hearing that will enable us to move forward through the 
nomination process for both Commissioner Svinicki and Dr. 
Macfarlane.
    In conclusion, I believe that both of these nominees 
clearly have the potential to play important leadership roles 
that will help to strengthen the Nuclear Regulatory Commission 
and their critical work that it does for our nation in the 
coming years, and I hope that when the hearing is concluded my 
colleagues on this Committee will share that believe.
    We want to thank you both for being here today and for your 
willingness to serve our country on this important Commission.
    I notice there are two young men sitting over your right 
shoulder there, Dr. Macfarlane. One of them is younger than the 
other, your 10-year-old son Graham. Graham, welcome today. 
Thank you for sharing your mom. And to your dad, thank you for 
sharing your wife.
    Kristine, I don't know if you have any of your family here, 
but in absentia, we wish them well.
    Thank you both.
    Senator Boxer. Senator Carper, thank you for recognizing 
the family of our soon to be, we hope, Chairman, because I 
didn't know she had her family here. I am very thrilled that 
you noted them.
    Senator Alexander, you are next.

          OPENING STATEMENT OF HON. LAMAR ALEXANDER, 
            U.S. SENATOR FROM THE STATE OF TENNESSEE

    Senator Alexander. Thanks, Madam Chairman, Senator Inhofe.
    Dr. Macfarlane, Commissioner Svinicki, welcome. We are glad 
you are here.
    I have been very impressed with President Obama's nominees 
to the Nuclear Regulatory Commission, and that includes 
Commissioner Svinicki, whom I know well. I do not know Dr. 
Macfarlane, but I am beginning to get to know her, and I have 
noticed her distinguished background. I too believe it is 
important for our country to have a full complement of members 
of the Nuclear Regulatory Commission, so I hope, Madam 
Chairman, we can make a prompt decision soon.
    I would like to, rather than surprise you with the 
questions I am going to ask when my time comes, I would like to 
tell you about them in advance, because that will help express 
my concerns and my attitude as I look forward to talking with 
you.
    First, and this will be especially for Dr. Macfarlane, is 
the management question. I have never seen anything in my 
public life, in and out of government over the last 40 years, 
as the dispute that has occurred among very well qualified 
members of the Nuclear Regulatory Commission, and without even 
getting very far into why that happened or how that happened, 
Dr. Macfarlane, if you are going to be the Chairman designee, I 
will be asking you about what you intend to do about that; what 
your manner and attitude will be in terms of leadership in an 
organization where you have well qualified colleagues and 4,000 
or so employees.
    Second, I will be asking about used nuclear fuel, nuclear 
waste; what are we going to do about it. And you may get some 
questions--especially Dr. Macfarlane will, maybe both of you 
will--about whether you are for or against Yucca Mountain. I 
won't be asking that. I will be asking whether or not you are 
against it should we not move ahead to find a repository and to 
find consolidation sites along parallel tracks, as recommended 
by the bipartisan Commission on Nuclear Waste, on which Dr. 
Macfarlane served.
    Three, I will be asking about small nuclear reactors and 
your attitude toward that. That is an opportunity our country 
has; it has broad support here in the Congress. We are funding 
a jump start of it. The Nuclear Regulatory Commission's 
nurturing of that process over the next 3 or 4 years will make 
a difference whether the United States is able to move ahead 
with it successfully. I will be asking about that.
    Two other things. One is the MOX fuel. TVA, as a Federal 
agency, has volunteered to use it, and the Nuclear Regulatory 
Commission will have to qualify it and then license the 
reactor. This is all a part of the United States' effort to 
take nuclear weapons that were intended to blow us up and turn 
them into fuel that we can use to heat our homes, and we have 
invested a lot of money in it in the United States, and this 
would be a beginning use of this fuel, which, if it works 
properly, could even reduce the cost of fuel at our civilian 
nuclear plants.
    And finally, I will be looking for a general attitude 
toward nuclear energy and its importance in the United States. 
Senator Boxer mentioned Japan, which is a concern for all of 
us. Of course, the Nuclear Regulatory Commission has an 
exemplary safety record; never a death at a civilian reactor in 
the United States, no one even hurt in Three Mile Island, which 
is our most celebrated accident.
    We would like to continue that, and I think one reason why 
support for nuclear power has continued in the United States, 
despite the pictures of Fukushima, is because we understand it 
pretty well and because the Nuclear Regulatory Commission has 
done such a good job over the years of safety in so many 
different ways. In fact, other parts of our energy industry, 
such as drilling for oil offshore, could take a lesson from the 
shared responsibility that nuclear power plants have with each 
other for making sure that they are safe.
    My own view is, particularly as I look at Japan--I was 
speaking to one of the former Ambassadors the other day--Japan 
has closed its plants. That gets rid of 30 percent of its power 
for the nation's second or third largest economy. That is a 
terrible blow. They are having manufacturing on weekends and 
thermostats are up, and the emperor was running around the 
palace with a candle to set a good example. That is not the way 
you build a vibrant, strong, prosperous economy. We need lots 
of clean, low cost, reliable electricity. Thirty percent of 
Japan's has been nuclear; 20 percent of ours is.
    The former Ambassador said two of the Japanese plants will 
be opening soon. He hoped that two by two by two they would 
come back for the welfare of the Japanese people. They don't 
even have the advantage of cheap natural gas over there that we 
have here.
    So I will be looking for your general attitude about the 
next 20 or 30 years of nuclear power. Mine is that we will 
probably need 100 new plants, partially to replace the ones we 
have and partially to keep our air clean and to meet the demand 
for electricity in a country that uses 25 percent of all the 
electricity in the world. But I wouldn't ask you to endorse 
that idea; I simply will be asking you about whether you are 
prepared to envision a future where nuclear power is a 
significant part of our base load electricity.
    I know the TVA, where I am from, is putting pollution 
control equipment on its coal plants. We can operate them in 
the future and produce about a third of its power from 
electricity, but it plans to make 30 to 40 percent of its 
electricity from nuclear power. TVA is the largest public 
utility.
    Right south of that is the Southern Company. They are the 
largest private utility. They have about the same idea; they 
are going to make about a third of their electricity from coal 
plants with pollution control equipment, and then they are 
going to make about a third of it with nuclear power. So I will 
be asking do you envision a future in which you can regulate 
that kind of large percentage of our electricity coming from 
nuclear power.
    So I welcome you here. I thank you for the opportunity to 
do this, and I thank the Chairman for having the hearing.
    Senator Boxer. Thank you so much, Senator.
    Senator Sanders.

          OPENING STATEMENT OF HON. BERNARD SANDERS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Sanders. Thank you, Madam Chair.
    Welcome to Dr. Macfarlane and Commissioner Svinicki. Thanks 
for being with us.
    Let me begin by expressing a little bit, for a change, of 
disagreement with Senator Inhofe. That happens every once in a 
while. I think he referred to Chairman Jaczko as ``having 
exercised failed leadership.'' Let me respectfully disagree. I 
happen to think, while I have had disagreements with Chairman 
Jaczko, I think he has done a good job, and I will tell you 
what I am upset about. I am upset about the level of personal 
attacks that have been waged against him from this Committee 
and within the NRC itself. And I happen to believe that those 
attacks, personal attacks, were a smoke screen for a 
philosophical divide that existed within the NRC and exists 
there today.
    Now, in this Committee we have fundamental philosophical 
differences; no great surprise. But I hope and believe that it 
is not necessary to wage personal attacks against each other to 
disguise our philosophical differences, and I fear very much 
that has been the case within the NRC. So I happen to believe 
that Commissioner Jaczko has been a strong defender of the most 
important task of the NRC, and that is to protect the safety 
and the well being of the American people. And sometimes he has 
cast a lone vote; he has been outvoted 4 to 1. But I think he 
has tried to do his job with dedication and sincerity.
    Let me express a few words about----
    Senator Inhofe. If you would yield on that point. As I told 
the Chairman----
    Senator Boxer. Could you stop the clock and allow Senator 
Inhofe to ask a question?
    Senator Inhofe. Yes. It is not even a question, but we had 
a whole hearing on Chairman Jaczko and on some of the alleged 
treatment of employees, disagreements with the Commission, and 
the failure to share things with the Commission. So I think it 
would be a good idea, anyone who is interested in this subject 
and the statements that the Senator made, go back and get the 
script of that hearing. I think it is pretty revealing.
    Senator Sanders. Well, I think it is, in all due respect, 
not revealing. I think he was subject to McCarthyite tactics, 
and I hope we don't see a repetition of that.
    In terms of some of my concerns about Commissioner 
Svinicki, she was one of the three members of the NRC who voted 
in secret--in secret--to recommend to the Department of Justice 
that it weigh in on Entergy's side in litigation with the State 
of Vermont over the future of the Vermont Yankee Nuclear Power 
Plant.
    In my very strong opinion, the role of the NRC is not to 
represent Entergy or any other nuclear power company against 
Vermont or against any other State; it is to ensure the 
strongest safety standards possible at nuclear plants. That is 
its job; not to be an advocate for nuclear energy, not to be an 
opponent of nuclear energy, but to do everything possible to 
protect the safety of the American people from potentially a 
very dangerous technology.
    Not only do I believe that Commissioner Svinicki's vote was 
wrong on the merits, but I am concerned that she voted without 
having reviewed the major Supreme Court ruling that defines the 
role States have in regulating nuclear plants. This is a very 
big issue.
    Everybody agrees that the function of the NRC is to protect 
the safety of the American people; that is its job; it is not 
to be a proponent of nuclear power, and in the case of Vermont, 
against the wishes of the people of Vermont, who did not want 
to see that plant extended.
    In terms of Fukushima reforms, Commissioner Svinicki has, 
consistent with an industry request, required that Fukushima 
reforms be subject to a cost-benefit test that could water down 
their effectiveness. Commissioner Svinicki's votes do not 
require new reactors comply with all Fukushima reforms. Too 
often she defers to industry-led voluntary initiatives instead 
of voting for NRC mandated safety requirements. That concerns 
me very much.
    Another very, very important issue that I hope we deal with 
in the near future has to do with the issue of transparency at 
the NRC. And I will be speaking to Dr. Macfarlane about this in 
my questioning as well.
    Commissioner Svinicki, along with some of her colleagues, 
does not disclose stakeholder meetings and will not agree to 
public meetings for NRC votes. Very important issue.
    More broadly, I am concerned that Commissioner Svinicki 
appears to be a promoter of nuclear power, and interestingly, 
my friend and colleague, Senator Inhofe, seems to agree with 
me. And I would like to present to the record an article 
appearing in a publication called Energy Guardian on April 
20th, 2012, and let me quote from that article. It is an 
interview with Senator Inhofe. He said in that article, 
entitled Inhofe Says Second Svinicki Term: Good for Nuclear 
Energy, ``I happen to be on the pretty extreme side in wanting 
to do more quicker, and I think she has that tendency too.'' 
Well, frankly, I do not want to see somebody on the extreme 
side of any issue being on the NRC. It is one thing for elected 
officials who go before their constituents; they have whatever 
position they want. But that concerns me very much.
    [The referenced document follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Sanders. We need Commissioners who are thoughtful 
and safety conscious. Commissioner Svinicki has given multiple 
speeches over the past several years that cite a ``nuclear 
renaissance,'' a term nuclear advocates use in the hopes of 
building dozens of new plants with billions and billions of 
dollars of Government support. In those speeches she has stated 
that the NRC's job is ``to enable commercial energy activities 
to proceed'' provided certain requirements are met. I disagree. 
I believe, again, that the NRC's job is to protect the public 
and be a strong and fair regulator, without bias in favor of or 
against the nuclear industry.
    We have before us today another nominee, Dr. Macfarlane, to 
be Commissioner and Chair of the NRC, as well, and I look 
forward to hearing more about her view. My hope is she will 
make strong commitments to us today that ensure the NRC can 
move forward aggressively toward transparency and openness as a 
good starting point for reform.
    However, I want to be clear, and I want to make this point 
as clear as I possibly can, that if the NRC does not move 
forward to reform its voting process to be open and 
transparent, I will be introducing NRC reform legislation to 
mandate a transparent public voting process. The current 
situation is opaque. The public does not understand how NRC 
members are voting, and that has got to change.
    I would hope, Dr. Macfarlane, that if you are confirmed you 
will lead the NRC in that direction. If not, I will be offering 
legislation to mandate that we do that.
    Madam Chair, thank you very much.
    Senator Boxer. I would yield the remainder of the time to 
Senator Inhofe if he would like to respond.
    Senator Inhofe. No, just a quick response.
    The article, and I think it was an accurate article, when I 
was mentioned, but keep in mind the context of that. I think, 
rather than extreme, I should have used the word impatient. I 
am ready for nuclear energy, it said. We have to have it in our 
mix, and it seems to me, in the years I have been on here, that 
it takes so long to get anything done. So that was the context 
in which I----
    Senator Sanders. Well, let me just respond. It is one thing 
to be impatient, but I do not want to see, in this country, a 
nuclear accident. I want to see the Commission do everything 
possible to protect the safety of the American people.
    Senator Inhofe. I agree, I agree, I agree.
    Senator Sanders. And impatience, by the way, Senator 
Inhofe, is not one of the qualities we want in those 
Commissioners. I want them to be patient; I want them to be 
thoughtful. I want them to go the extra 10 miles. Nuclear power 
cannot be 99.99 percent safe. That is the problem we have with 
that technology. So impatience or extreme is not a quality that 
I would like to see on the Commission.
    Senator Boxer. All right.
    Senator Sessions.

           OPENING STATEMENT OF HON. JEFF SESSIONS, 
             U.S. SENATOR FROM THE STATE OF ALABAMA

    Senator Sessions. Thank you, Madam Chairman.
    Let me make a couple points about professionalism of this 
nominee, Kristine Svinicki. Her record shows that she is 
dedicated to the safe operation of nuclear plants and collegial 
work. In the past 4 years, while on the NRC, Kristine Svinicki 
voted on 135 or so significant policy or rulemaking matters; in 
over 90 percent of the votes she voted to approve the 
recommended action of the Nuclear Regulatory Commission 
professional staff and voted with the majority well over 90 
percent of the time during that period.
    Let me also mention this concern that was raised about her 
testimony that she did not disclose involvement in a paper 
concerning Yucca Mountain when she testified last time. Her 
involvement in the Yucca project was fully evaluated during her 
confirmation process in 2007, 2008. She was fully forthcoming 
in her written questionnaire and written responses to questions 
about her involvement in nuclear waste issues early in her 
career and testified before the EPW Committee. She was 
unanimously confirmed.
    Ironically, the technical paper that her opponents claim 
she was hiding from the Senate during her confirmation process 
was actually the first of her articles listed in her Senate EPW 
questionnaire submitted 5 years ago. So I don't want to use 
McCarthyite phrases, but we need to be careful about somebody 
of her integrity and ability in suggesting motives that aren't 
there.
    Also, I would note that the paper that was referred to, 
that she coauthored as a young engineer working in the Clinton 
Department of Energy, it was very short, less than 3 pages, and 
briefly described the Yucca Mountain site and described the 
potential waste acceptance and disposal process. She left this 
particular DOE waste program in 1997, during the Clinton 
administration time, long before Secretary Abraham, under the 
Bush administration, recommended Yucca Mountain to President 
Bush in 2002.
    I would also note and am pleased to learn that just this 
week Ms. Svinicki was awarded the 2012 Presidential Citation by 
the American Nuclear Society, an organization of 11,000 
engineers, scientists, and educators. When she was issued the 
award, the ANS president said, ``Commissioner Svinicki has 
demonstrated leadership and adherence to the highest 
professional conduct while serving on the Commission. She 
combines an unshakable demeanor with proven technical and 
professional qualifications, and we support her nomination to a 
second term on the Commission.'' The award specifically 
recognized her ``courageous leadership, dedication to public 
service, unwavering commitment to a regulatory framework that 
enables facilities to operate safely and securely with nuclear 
technology.''
    Also, I would note that Mr. David Lochbaum, who is the 
Nuclear Safety Project Director of the Union of Concerned 
Scientists, basically anti-nuclear and take very liberal views, 
said this about her, according to the EE newsletters: She in no 
way is a ``industry puppet'' and her views have stayed 
consistent since he first met her more than a decade ago. ``I 
don't agree with some of the positions she takes, but I think 
they are sincere views. I don't think that the industry is 
getting to her or she is reading their script.'' Mr. David 
Lochbaum, concerned scientist.
    So I just would make that point, and I know that we have a 
good record here that she would operate under.
    And Dr. Macfarlane, I did enjoy very much meeting with you; 
it was a good conversation. I note that you are taking over a 
very important task, and if appointed Chairman, as the 
President indicated he will do, which is his prerogative, that 
you will be undertaking to supervise 4,000 employees, a 
supervisory role you have never had before, and it would be a 
real step for you. I hope that you can handle that effectively. 
So it raises that concern with me and the other issues that I 
might question you about as we go forward. But I have enjoyed 
meeting with you.
    I think the President does have--I think there is a 
situation that has occurred with regard to the controversy at 
the Committee, and I am supportive of the idea that we need to 
move forward. I will support--I will not seek to block your 
confirmation, and I think it will be the right thing for us to 
do, to do both of these nominations and move them together, 
although I would express that your background is not the kind 
of background I would normally look for in a Chairman of the 
NRC.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you, Senator.
    Senator Lautenberg.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you very much, Madam Chairman, 
and thanks for bringing us together to consider the nomination 
of Dr. Allison Macfarlane and renomination of Kristine Svinicki 
to the Nuclear Regulatory Commission.
    Nuclear energy, everyone knows, has been critical to 
meeting our nation's energy needs, and it is an emissions-free 
energy source that provides one-fifth of America's electricity. 
My State of New Jersey, our four nuclear power reactors provide 
the State with more than half of its electricity. But as we saw 
in Japan last year, there are also many reasons to be cautious. 
In order to operate plants safely, the United States must have 
an effective policy for disposing and storing spent nuclear 
fuel, and right now most nuclear power plants store more than 
1,000 tons of nuclear waste in spent fuel pools onsite. It is 
not a sustainable situation.
    In New Jersey, nuclear waste is stored onsite at our four 
nuclear reactors, and some of it is in dry cask storage, but 
most is in spent fuel pools, which rely on a steady supply of 
water and electricity. In Japan, when the tsunami knock the 
power out, we saw rescue workers desperately spraying water 
from fire hoses into the spent fuel pools. More than half a 
year later there are still serious concerns about the safety of 
spent fuel at Fukushima and one thing is clear: we have to find 
better and safer ways to store nuclear waste to ensure that a 
disaster like the one that took place in Japan never happens 
here. That means finding more secure ways to store fuels 
onsite, finding agreeable places to store national spent fuel, 
and making sure that these sites have long-term viability.
    We have now heard from the President's Blue Ribbon 
Commission, which made a number of recommendations that could 
provide the path forward, and I look forward to hearing from 
the two nominees on how they plan to approach the Commission's 
proposals and fill their mandate. If confirmed, these nominees 
will hear from industry interests that may oppose strong safety 
regulations, and we have to be particularly careful about 
proposing a particular company or organization. Let the 
question be, is this safe enough; are we doing what we can to 
protect the public? That is where the interest must lie. But 
don't forget companies that are accountable to shareholders 
often have to focus, or have focused, on short-term costs and 
quarterly profits.
    In contrast, the NRC must be accountable to the people, 
must stay focused on ensuring the safety of this generation and 
the next. So I expect both of these nominees, if confirmed, to 
always err on the side of safety. Relaxing regulations could 
harm the public and would do the industry no favors. Just look 
at Japan. They were not prepared to withstand last year's 
disaster, and last month they shut down the last of their 54 
nuclear reactors.
    I find it shocking that they are able to get by after 
shutting 54, all of their nuclear reactors, and still have the 
society functioning, but that is life, and we have to evaluate 
how much of our energy ought to be created in nuclear 
facilities. Nuclear energy has been critical to our nation's 
energy needs in the past, but we have to take the necessary 
precautions now in order for that to be true in the future.
    Thank you, and I wish each of you luck in continuing your 
service to the country. Thank you.
    Senator Boxer. Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Madam Chairman.
    I would first like to also welcome our two distinguished 
nominees who are here with us today. Congratulations to both of 
you on your nominations.
    Madam Chairman, the Nuclear Regulatory Commission has gone 
through a very dark period recently. The Commission has 
experienced a crisis of leadership at the top of the agency; 
incidents of harassment of staff, outbursts of rage, and 
withholding of information from fellow commissioners by 
Chairman Jaczko. It has hurt the agency's image.
    Throughout it all, the other four NRC Commissioners and the 
staff have persevered as they always have, ensuring that the 
mission of the agency--nuclear safety-- is not compromised.
    Today we should be pleased to have this opportunity to work 
toward strengthening the leadership of this agency by ensuring 
the agency has a full complement of Commissioners. I believe 
that Commissioner Svinicki is eminently qualified to continue 
her distinguished career on the Commission. She has shown 
leadership and expertise that have earned her the praise from 
fellow Commissioners, both Democrat and Republican. Despite 
delays in getting her re-nominated by this Administration, I 
and many of my colleagues on this Committee will work to ensure 
that she is swiftly confirmed.
    With regard to Dr. Macfarlane, who has yet to serve on the 
Commission, I believe that we do need to look at what are the 
qualifications that we seek in a nominee to serve out the rest 
of Chairman Jaczko's term. She has a long career, distinguished 
career in academia; has served on the Blue Ribbon Commission on 
America's Nuclear Future. It is our job as the Senate 
Environment and Public Works Committee to explore her positions 
on what she sees as the future of nuclear power; that is, what 
are her views on uranium production, which is very important to 
my home State of Wyoming, where uranium is in abundance. We 
need to explore her views on nuclear power plant permitting and 
the long-term storage of nuclear waste.
    If we are to have a true, all out, all of the above energy 
strategy that the President has talked about, we must continue 
with building new power plants and developing a long-term place 
to store nuclear waste. These are all essential to the future 
of nuclear power in America.
    As I have stated, there has been a crisis of leadership at 
the top of the Commission. We need to find a leader of the 
Commission who doesn't try and run the Commission with a top-
down command and control approach; someone who is not afraid to 
reach out and utilize the years of technical expertise that the 
other distinguished Commissioners offer; someone who has a 
demonstrated record as a successful manager, knows how to take 
a large, complex organization with different personalities and 
backgrounds and get it working toward a common goal without 
compromising ethics.
    At a time when there is a void of leadership at the very 
top of the NRC, we need the best, most qualified person that we 
can find. When it comes to the issue of nuclear safety in 
America's energy future, the public expects no less.
    We have great challenges ahead of us in the next few years 
to secure America's energy future. With the need to address 
America's demand for clean, safe, domestic, affordable energy, 
we need to work together to strengthen the Commission. As the 
Ranking Member of the Subcommittee on Clean Air and Nuclear 
Safety, I pledge to work with my colleagues to accomplish this 
goal.
    I would like to say, once again, congratulations to both of 
you on your nomination by President Obama. I would also like to 
read to you both quotes from both industry and from labor which 
describe the qualities that they have seen, both industry and 
labor, that both have seen from Commissioner Svinicki during 
her tenure. The American Nuclear Society says, ``Commissioner 
Svinicki combines an unshakable, unshakable demeanor, with 
proven technical and professional qualifications, and we 
support her nomination to a second term as NRC Commissioner.''
    The American Federation of Labor-Congress of Industrial 
Organizations, the AFL-CIO, says, ``We believe a review of Ms. 
Svinicki's qualifications and her previous service at the NRC 
demonstrate that she is precisely, precisely the kind of public 
servant that gives all Americans confidence in the safe 
operation of our Nation's nuclear energy industry.''
    And the International Brotherhood of Electrical Workers 
stated, ``Through her dedication and leadership, Commissioner 
Svinicki has demonstrated the right kind of approach to 
technical and legal issues before the agency that is critical 
to ensure the safe operation of our nation's nuclear energy 
industry.''
    This all high praise, very well earned. So, Commissioner 
Svinicki, I trust that you will commit to continue to serve the 
public interest and work collegially with your current 
colleagues and your prospective new colleague in the same 
exemplary way.
    And Ms. Macfarlane, I trust that you will work with this 
fine Commissioner, and her colleagues as well, in hopes that 
you will earn similar respect and praise.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you so much, Senator.
    Senator Carper. Oh, Cardin. We already heard from Senator 
Carper.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. I am glad to give Senator Carper more time. 
That is fine.
    Madam Chairman, I know that we are anxious to hear from our 
witnesses, but first let me thank both of our participants 
today for their willingness, one, to continue in public 
service; the other to put herself in a very important position 
for our country. So we thank you for your willingness for 
public service. And we know this is not just your commitment, 
it is a family commitment, so we thank your families for being 
willing to share you with your country.
    I just want to make one observation and will ask that you 
focus either in your presentations or in the questions as to 
the storage issue of spent fuel. I think it is important for 
the Commission to make decisions. Inaction, causing policies to 
be formed because of inaction, is not, I think, the best 
interest of our country, and I very much want to focus on 
safety. That is a critically important part of your 
responsibility, but also how we move forward with nuclear 
energy in this country. I think we need to have that right 
balance, and the Commission must act in order to give us the 
guidance to do that. The failure to act can cause policies to 
move in a certain direction that perhaps is not in the best 
interest of our country.
    One of the areas that had been the most difficult, I think, 
for all of us to get a grip on is how do we deal with the spent 
fuels. Can we safely store long-term, onsite, the spent fuels, 
whether they are in pools or whether they are in cask storage? 
And I think it is important for us to get your views as to how 
you see the future of nuclear energy in America based upon the 
storage capacities and where we need to be looking at from the 
point of view of our nation from the safety and the need for 
nuclear energy.
    Once again, I thank you very much for your willingness to 
step forward. This is a very important assignment, and we very 
much look forward to your testimony and your service.
    Thank you, Madam Chair.
    Senator Boxer. Thank you.
    Senator Udall.

             OPENING STATEMENT OF HON. TOM UDALL, 
           U.S. SENATOR FROM THE STATE OF NEW MEXICO

    Senator Udall. Thank you, Madam Chair. I am just going to 
be brief and ask that my full statement be put in the record. 
But I want to also echo what other members have said in terms 
of safety.
    The buck really stops with the NRC when it comes to safety, 
and I hope that you hear that message from us. It is 
tremendously important that you have that as a focus, and when 
you look at regulating, that you highlight that. And we don't 
have to look any further than Japan to see what happens if 
safety goes wrong. The articles I have been reading about 
Japan, as Senator Lautenberg said, 54 plants have been shut 
down. Their businesses are talking about moving overseas. Their 
economy is collapsing. They are having serious problems. So 
safety inter-reacts with all the other issues that are out 
there and the vital issues that we all share here about our 
economy and our economic development.
    With that, let me just thank Dr. Macfarlane for your 
service on the BRC, on the Blue Ribbon Commission. I know that 
you traveled to New Mexico; you took a great interest in that 
Blue Ribbon Commission that is looking at where do we go on the 
waste that is stored around the country, and how do we thread 
the balance between interim sites or consolidated sites, as we 
are calling them, and these long-term depositories that we are 
studying, and we very much appreciate that Blue Ribbon Panel's 
recommendations.
    And our Chairman, Chairman Boxer, has been already on top 
of this, and this Committee has. We have had hearings on your 
report and we believe--Senator Carper was the Chairman of the 
Subcommittee that looked into that--that our Committee has the 
jurisdiction on that, and we intend to weigh in and take your 
recommendations seriously and come up with legislation.
    So, with that, thank you, Madam Chair.
    [The prepared statement of Senator Udall was not received 
at time of print.]
    Senator Boxer. Thank you very much.
    At this time we are going to actually get to our nominees. 
But I want to thank colleagues, because I thought we are just 
laying things out on the table here, and I thought Senator 
Sessions was extremely honest about what is happening and how 
it will play out. So thank you for that.
    Now, I would like to turn to Dr. Allison Macfarlane, who 
has been nominated to be Chairman, and we are very honored that 
you are with us today, and we look forward to hearing from you.

            STATEMENT OF ALLISON MACFARLANE, PH.D., 
          ASSOCIATE PROFESSOR, GEORGE MASON UNIVERSITY

    Ms. Macfarlane. Thank you. Chairman Boxer, Ranking Member 
Inhofe, and members of the Committee, it is an honor to appear 
before you today as President Obama's nominee for the position 
of member of the Nuclear Regulatory Commission.
    Before continuing, I want to thank my husband, Hugh 
Gusterson, and my son, Graham, who are here with me today, for 
their unwavering support and encouragement.
    I am also pleased to be at the table today with 
Commissioner Kristine Svinicki. If confirmed, I look forward to 
working with Commissioner Svinicki and Commissioners 
Apostolakis, Magwood, and Ostendorff. They are all talented 
individuals engaged in the high calling of public service, and 
I look forward to forging a collegial relationship with them, 
if confirmed.
    Over the last week and a half, I have had the opportunity 
to meet some of the talented staff of the NRC, who have 
provided me with a number of briefings on some of the important 
issues before the NRC. While I was aware of the staff's 
reputation, these briefings have reinforced my observations 
about both the quality of the NRC staff and their level of 
commitment to the mission of the Commission, and that mission 
boils down to a simple concept: protecting the safety of the 
American people and the environment.
    The NRC's main mission is to protect public health and 
safety, promote common defense and security, and protect the 
environment, and my background has prepared me for of all of 
these mission areas.
    My background is as a scientist and a public policy 
scholar. We are trained to be objective, analytical, and to 
treat our peers as equals. I note that academics over the years 
have made important contributions to nuclear safety. Among 
those are former Chairs Shirley Jackson, Nils Diaz, and Dale 
Klein, and now Commissioner Apostolakis, with whom I share an 
MIT connection.
    I earned a doctorate in geology from the Massachusetts 
Institute of Technology in 1992. Geology, as you are aware, 
plays an important role in the safety of a variety of nuclear 
facilities. Recent history in Japan, as many of you have 
mentioned this morning, has reminded us of the relevance of 
geology in reactor safety.
    I have worked at both public and private institutions, 
including Harvard, Stanford, MIT, Georgia Tech, and George 
Mason University, and I have contributed to nuclear policy 
debates since 1996 and have served on National Academy of 
Science panels reviewing nuclear energy programs and nuclear 
weapons issues. Most recently I was honored to serve on the 
President's Blue Ribbon Commission on America's Nuclear Future, 
another area where my primary background had a role.
    I make this commitment to you today: if confirmed, I will 
devote all my energies to serving on the NRC with the 
attributes that I consider important to good governance: 
openness, efficiency, and transparency. I will make a strong 
commitment to collegiality at all levels. An agency endowed 
with the public trust, such as the NRC, requires a respectful 
working environment to assure its integrity.
    I am absolutely committed to working with all interests: 
industry, the public, Government agencies, and especially 
Members of Congress. I will solicit a wide range of opinions, 
ask questions, examine the facts objectively, and reach 
decisions based on those facts. And I will work to ensure that 
the NRC remains the global standard among regulatory agencies 
and continues to be a top ranked workplace for its employees.
    Thank you, and I would be happy to answer your questions.
    [The prepared statement of Ms. Macfarlane follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
   
    
    Senator Boxer. Thank you very much.
    Commissioner Svinicki.

  STATEMENT OF HON. KRISTINE L. SVINICKI, COMMISSIONER, U.S. 
                 NUCLEAR REGULATORY COMMISSION

    Ms. Svinicki. Thank you Madam Chairman, Ranking Member 
Inhofe, and members of the Committee. I am grateful to 
President Obama for nominating me to an additional term of 
service on the Commission. If the Senate acts favorably on my 
nomination, I would be privileged to continue this work.
    I congratulate Dr. Macfarlane on her nomination and extend 
my best wishes to her in this confirmation process.
    I am grateful for and humbled by the kind introduction of 
Senator Sessions. I was very privileged to serve Senator 
Sessions and other members of the Senate Armed Services 
Committee, and learned much in those years of service.
    When I arrived at the NRC in March 2008, I joined an agency 
already deeply active in the review of applications for the 
construction of new nuclear plants and new reactor designs, an 
agency continuing to adapt its security framework to post-9/11 
realities, and an agency whose regulatory program is regarded 
as among the most informed and disciplined in the world. In 
approaching this work, I have researched the facts and history 
of issues, and have endeavored to understand fully the effect 
of proposed regulatory changes. I have also looked to the 
fundamental guidepost envisioned in the NRC's Principles of 
Good Regulation, of Independence, Openness, Efficiency, 
Clarity, and Reliability, in assessing the issues.
    The tragic events in Japan in 2011 cast NRC's work into 
even sharper relief for the American public. Nuclear technology 
is unique, and its use demands an unwavering commitment to 
safety principles. When I last appeared before this Committee 
in March, the NRC had just issued a series of orders to nuclear 
power plant licensees requiring features to mitigate beyond 
design basis extreme natural events, requiring the installation 
of hardened venting systems, and requiring enhanced 
instrumentation for spent fuel pools.
    The NRC is also requiring nuclear power plant licensees to 
undertake substantial reevaluations of seismic and flooding 
hazards at their sites. Since issuing these requirements 3 
months ago, the NRC has been developing and communicating the 
specific guidance for implementing the requirements and has 
continued to hold public meetings on these topics. This work 
has benefited from the input of nuclear operators, nuclear 
safety and environmental interest groups, and the public.
    Of course, none of this could be achieved without the hard 
work and commitment of the women and men of the NRC, and their 
sustained efforts to advance the NRC's mission of ensuring 
adequate protection of public health and safety and promoting 
the common defense and security. Their commitment over the last 
4 years has inspired and impressed me. I would like to take 
this opportunity to convey my personal gratitude to each of 
them for welcoming me to the NRC in 2008 and supporting me in 
the contributions I have endeavored to make to our shared 
goals.
    Madam Chairman, Senator Inhofe, and members of the 
Committee, thank you. I appreciate the opportunity to appear 
today and look forward to the Committee's questions.
    [The prepared statement of Ms. Svinicki follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
   
   
    
    Senator Boxer. Thank you.
    We are going to have 6 minutes per member for questions.
    Before I ask my questions, I wanted to put two items into 
the record. One is a ranking of the NRC from its employees in 
2010. Senator Barrasso said this was a dark time for the agency 
and how horrible it was under Greg Jaczko. The fact is the 
employees rated it No. 1 out of all the different agencies. So 
I put that in the record.
    [The referenced document follows:]
    
    
    
    
    Senator Boxer. Now, I do think it has been a dark time in 
terms of what Senator Sanders said about the terrible situation 
with the Commissioners, and I am so happy with what you said, 
Dr. Macfarlane, about this, because the point is we can 
disagree and not be disagreeable. We can disagree and be 
respectful. Look, the two of us agree on one thing out of a 
thousand, and it is the highway bill.
    [Laughter.]
    Senator Boxer. Outside of that, we don't agree on much. But 
we really like each other, care about each other, and respect 
each other. Now, that is just two of us. And every colleague 
here could say the same about a colleague on the other side of 
the aisle. And that is the kind of thing we need at the agency, 
not trying to destroy people, OK? That is wrong. You don't 
destroy people, as Senator Sanders said. And I also worry about 
that, that that is what was going on over there. It is very 
disturbing.
    I also want to put in the record, because Senator Alexander 
talked about the support for nuclear power. This last article 
said that it had dropped among the people. Now, it is 
understandable that it fell, given what happened at Fukushima, 
but it dropped to 42 percent from 61 percent. Support for 
building more nuclear power plants fell to 42 percent from 61 
percent that it was in 2008. So I just want to put that in the 
record.
    [The referenced document follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Boxer. Having said all that, I am now going to ask 
some questions, mostly to Commissioner Svinicki, because my 
request of Dr. Macfarlane, I don't have questions for her, is 
just to bring that collegiality, bring that professionalism, as 
you have shown that you have done in every job you have had, to 
the Commission, because it is necessary to have a fresh start 
over there from everyone. And also a lot of transparency. And 
we are going to be holding a lot of oversight to see how it is 
going with all the Commissioners, because I think it is 
important.
    OK, so, Commissioner Svinicki, there are serious problems 
with the steam generators at the San Onofre Nuclear Plant. I 
know you are aware of that. It is shut down, and we don't know 
when it is going to open. The operator is very concerned. There 
are many people who believe it was the design changes that were 
permitted to go forward. So I asked, wrote and asked if we 
could have a review whether or not there should have been a 
license amendment. Do you agree or disagree that there should 
have been a license amendment?
    Ms. Svinicki. Senator, I understand that, as a part of the 
augmented inspection team that was begun a couple of months 
ago, that the NRC staff has underway a review of the 
justification of the licensee for not submitting a license 
amendment. I support that review and look forward to the 
results from our augmented inspection team, which will look 
into the issue of whether or not there should have been a 
license amendment.
    Senator Boxer. I appreciate that. But again, that is not 
what you did. I would place in the record the Commission 
correspondence. You crossed out the sentence that Chairman 
Jaczko wrote, and this is what it said: We are reviewing in 
retrospect whether the licensee's evaluation should have 
resulted in a determination that the changes to the facility 
required NRC review. You crossed that out. Why did you cross 
that out if you say now you want to see it reviewed?
    Ms. Svinicki. In voting on that, the Commission's response 
to you, Senator, I understood that the review was already 
underway as part of the augmented inspection team. I did not 
intend for that editorial change to change that; the augmented 
inspection team was already looking at that issue.
    [The referenced document follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Boxer. Well, this is a letter to me from the 
Commission. If that is what you believed, and this is all your 
writing, I have it, you could have written in, Senator, this is 
already taking place. It is another one of those examples of my 
being extremely disappointed in the way you answer me. If it 
goes back to Yucca, which Senator Sessions said you were very 
obvious on, you weren't obvious on it. I mean, the record 
speaks for itself.
    I simply asked you a very straightforward question, did you 
do work on Yucca, and you said no. But I will put all that in 
the record; we are not going to retread that. It is one of the 
reasons I am not supporting your renomination, and I don't have 
to go through it again. But this is another example. I ask you 
a question; you say, oh, you support me. But when you had the 
chance to support it in writing, you cross it out, said to me 
now it already was happening, but the facts don't comport with 
that.
    [The referenced document follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    
    
    Senator Boxer. So now I want to ask you this: At NRC's 
Annual Regulatory Information Conference in March, you read 
from an article that was entitled ``The World Has Forgotten the 
Real Victims of Fukushima'' that used the phrase a nuclear 
disaster that never was. That is what this article was, a 
nuclear disaster that never was. Do you really believe the 
meltdown of three nuclear reactors at Fukushima qualifies as a 
nuclear disaster that never was?
    Ms. Svinicki. No, Senator. I intended, by quoting at length 
from that article, to discuss the human tragedy that had 
occurred to the people of Japan. I had felt that some of the 
narrative contained therein was very moving about watching 
these events unfold on television and the tremendous scale of 
the human tragedy that had occurred there. That was the focus 
of my repeating some of the text of that article.
    Senator Boxer. OK. So you believe that Fukushima was a 
nuclear disaster.
    Ms. Svinicki. Yes, definitely.
    Senator Boxer. OK. So that leads me to my next question. 
The Nuclear Regulatory Commission established a goal to 
implement the Fukushima recommendations within 5 years. 
However, it appears that the recent orders which begin to 
implement those recommendations allow nuclear power plants more 
than 5 years to comply with safety. If confirmed, will you work 
to ensure, and answer me, please, honestly, work to ensure that 
the schedule is accelerated so safety improvements are 
implemented within 5 years?
    Ms. Svinicki. As I had testified in March, I believe that 
there are potential opportunities to accelerate those 
schedules, and if confirmed to another term, I would work very 
earnestly with other members of the Commission to find those 
opportunities to accelerate activities where possible.
    Senator Boxer. I am going to repeat the question. Will you 
work to ensure that the schedule is accelerated so safety 
improvements are implemented within 5 years? It took 10 years 
to get the safety improvements after 9/11. That is too long to 
wait. Will you work to see that they are implemented within 5 
years?
    Ms. Svinicki. Yes, Senator, I will work to ensure that they 
are implemented in 5 years----
    Senator Boxer. Thank you.
    Ms. Svinicki [continuing]. Knowing that there may be 
implementation challenges beyond my control.
    Senator Boxer. Well, that is a big loophole, but we will 
talk about it as time goes by, believe me. And I will close 
with this question: Ms. Svinicki, 94 organizations concerned 
with nuclear safety signed on to letters opposing your 
renomination to the NRC, and it is a disturbing thing for me. 
And they are not just using rhetoric; they are showing the 
votes, and I read some of those into the record.
    If reconfirmed, would you meet with a few of the safety 
advocates who have qualifications within the organizations, and 
we can work with you on that, will you sit down with them 
across a table, just you and them, and hear their concerns so 
that maybe we can bridge this divide that I fear is present in 
this community?
    Ms. Svinicki. Yes, Chairman Boxer, I make that commitment. 
And I have met, over the course of my time at NRC, with some of 
the organizations that have signed that letter.
    Senator Boxer. OK, good. Well, will we work together on 
that, then?
    Ms. Svinicki. Yes.
    Senator Boxer. I don't think more than three or four is a 
good idea, but I think if you could meet with three or four, it 
would be great. Well, thank you very much.
    I turn to Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman.
    I would like to enter something into the record. I ask 
unanimous consent that page 33 of the hearing, and I happened 
to be Chairman at that time of this Committee of 2007 was your 
confirmation hearing. In this, this subject was discussed in 
terms of her response, and it seemed to be a satisfactory 
response. So page 33 of the hearing of 2007.
    [The referenced document follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    

    
    Senator Inhofe. I would say to both of you, when a tragedy 
occurs such as 9/11, it changes the behavior; we do things that 
we hadn't done before, and of course, we have air space issues 
and all that. But when Fukushima happened, the same thing 
happened. However, the NRC has imposed a number of actions on 
nuclear power plant owners post-Fukushima which have to deal 
with in addition to the daily activities.
    In other words, they took on more responsibilities. It 
seemed to me at the time, and I am just going from memory, 
Commissioner Svinicki, that a lot of the things that they had 
not done in Fukushima we were already doing here, and I would 
like to ask you how would you prioritize the changes that took 
place after Fukushima compared to before Fukushima.
    Ms. Svinicki. Thank you, Senator Inhofe. Although I am not 
aware of any organization that has done a comprehensive 
comparison of the regulatory requirements in place in Japan and 
the United States, it is apparent that the actions that the NRC 
mandated after the attacks of September 11th would have 
provided an opportunity at U.S. plants to mitigate against this 
extreme kind of natural event that occurred in Japan. Since 
Japan did not have a 9/11 type event, their regulator had not 
put equivalent measures in place in Japan, to my knowledge.
    In prioritizing the NRC's response to the lessons learned 
of Fukushima, we have, of course, looked at extreme natural 
hazards, and that is one of the outgrowths: to look at the 
readiness to mitigate and defend a nuclear power plant against 
extreme natural events. So, as I discussed, we issued three 
immediately effective emergency orders requiring that nuclear 
power plants in the United States enhance their ability to 
mitigate against what we call beyond design basis or very 
extreme natural events.
    We also issued an order to require hardened venting systems 
at BWR plants of a certain containment design. And then we also 
are requiring enhanced spent fuel pool instrumentation so that 
there will be greater knowledge about the status of the spent 
fuel pools should an extreme natural event occur. We also are 
requiring the reevaluation of seismic and flooding risks at 
plants, as I had described in my testimony.
    Those appeared to the NRC to be the most immediate actions 
that should be put forward after Fukushima. Of course, we have 
what we call Tier 2 and Tier 3 recommendations also under 
evaluation.
    Senator Inhofe. OK, thank you. That is a very good answer.
    Dr. Macfarlane, I am sure you are aware and have studied 
this before or since your nomination, that in 1980 we had a 
reorganization of the NRC, and it did prescribe specific duties 
of the Chairman, of the Commissioners, and of staff at certain 
levels, so I need to ask you two quick questions here. One is 
in that plan they stated that the Chairman ``shall be 
responsible for ensuring that the Commission is fully and 
currently informed.'' As Chairman, would you interfere or seek 
to influence the flow of information between the Commissioners 
and the agency staff?
    Ms. Macfarlane. No, I will not. I will ensure that the 
other Commissioners are fully informed.
    Senator Inhofe. I think you covered that pretty well in 
your opening statement, but I wanted to make it in reference to 
this reorganization statement.
    Ms. Macfarlane. Right.
    Senator Inhofe. The second thing that was in that plan in 
1980 says the Chairman ``shall be governed by the general 
policies of the Commission.'' Would you also agree with your--
--
    Ms. Macfarlane. Absolutely.
    Senator Inhofe. Fine. Thank you very much.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you very much, Senator.
    Senator Carper.
    Senator Carper. Thanks, Madam Chair.
    Again, thank you both for your testimony today and for your 
willingness to serve. I want to just return to a discussion 
that took place in this room just a few days ago with several 
members, including Brent Scowcroft, from the Blue Ribbon 
Commission on which you served, Dr. Macfarlane. The discussion 
dealt with spent fuel is not going to end up in Yucca Mountain, 
and how do we go forward and find a place that is suitable in 
this country or places that are suitable in this country.
    Senator Alexander and I both served as Governors, and we 
had to, among other things, be concerned about where to site 
prisons. Not an easy thing to do in a small State like 
Delaware, and in fact, a number of other States. As it turns 
out, there are other States that literally competed for the 
right to become a repository, if you will, for people who 
violated the law in our State and were incarcerated, and we had 
a competition that flowed from that situation. And a consent-
based approach, which is what the Blue Ribbon Commission is 
suggesting, really makes a lot of sense to me. Regardless what 
happens with Yucca Mountain, I think we have to learn from that 
experience and just be a whole lot smarter going forward as we 
prepare to take next steps.
    How might we incentivize other States, other localities to 
be willing to, as they are in France and some other countries, 
to be willing to be a site for these kinds of activities? Your 
ideas from both of you, please. What would be your counsel to 
us?
    Ms. Macfarlane. Well, first of all, I will say that the 
mission of the NRC is protecting human health and safety, and 
not making energy policy. But speaking as a former Blue Ribbon 
Commission member in that forum, I would say that it is 
important to offer compensation, without necessarily specifying 
exactly what that compensation is, to the local community who 
might be interested in following up an opportunity to host 
either an interim storage facility or a repository, and work 
with the community in determining what form or shape the 
compensation would be. That is one way of offering something 
like that.
    Senator Carper. Well, what seems to have worked in some 
other countries?
    Ms. Macfarlane. I don't even think we need to look as far 
as other countries, because the United States is the only 
country with an operating deep geologic repository, and that is 
in the great State of New Mexico, just outside of Carlsbad, New 
Mexico. It is the Waste Isolation Pilot Plant, and it has 
operated successfully since 1998. They have received over 
10,000 shipments of transuranic waste from the nuclear weapons 
complex. It was not straightforward in terms of arriving there, 
it took about 20 years, but there was a lot of good back and 
forth between the State and the Federal Government and the 
local community, and the local community and the State now, 
from our experiences on the Blue Ribbon Commission with them, 
are very, very supportive of this, it has worked very well. So 
it can work, and it has worked within our country.
    Senator Carper. All right, fine.
    Commissioner Svinicki, any comments you might like to add, 
please?
    Ms. Svinicki. As noted by Dr. Macfarlane, the NRC did not 
take an active role in the Blue Ribbon Commission 
recommendations. I know that some of our technical staff 
presented before the Blue Ribbon Commission and provided 
information as requested by the Commission.
    Senator Carper. I would just remind us all, as we are 
concerned about safety with respect to the operation of nuclear 
power plants, part of safety is the safe storage, if you will, 
of spent fuel rods, so it is something that I think we all need 
to be mindful of.
    One of my colleagues, I don't know if it was Senator 
Sessions or not, but one of my colleagues, Dr. Macfarlane, 
mentioned that it is not everybody that gets the opportunity 
really to lead an organization of 4,000 employees. I think you 
mentioned that there are other folks who served on the 
Commission, who served as Chair of the Commission who have not 
run organizations of this size and complexity before. Talk to 
us about your approach to leadership and why do you think you 
have the skills to be able to lead an organization of this 
magnitude, and what might you do to further strengthen those 
skills.
    Ms. Macfarlane. Great. Thank you very much for your 
question. First, I should note that at the Nuclear Regulatory 
Commission there is already an exceptional structure in place 
that manages the day to day operations of the agency and 
oversees the dedicated employees there.
    If confirmed, I would view my role as continuing the 
mission of the NRC, continuing to be accountable to you all and 
to the people of the United States. I see that the main mission 
for the Chairman currently, especially given the current 
circumstances, is a leadership position and I think that some 
of the important attributes in terms of being the Chairman in 
this leadership position is to behave in as a collegial manner 
as possible.
    If confirmed, I would plan on reaching out to the 
Commissioners on a regular basis, having one on one 
conversations with them. They all have different sets of 
expertise, and I would certainly want to tap that expertise, 
consult them on issues that come before the Commission. And in 
the past I have worked with people from a variety of different 
viewpoints; I certainly did that on the Blue Ribbon Commission. 
We were not all of one mind at all, but we did work together to 
forge consensus.
    That final report was a consensus document. Sometimes it 
was hard fought, but it was well worth it. I don't think 
anybody expects the five Commissioners to agree on everything. 
I don't think that was the intention. But certainly they should 
work collegially together.
    Senator Carper. I would just add to that, and I have said 
this in this room before, and this is just my counsel to you, 
would be to, as the leader, if you are confirmed and become the 
Chair, to try to focus on what is the right thing to do; not 
the easy or expedient thing to do, but the right thing to do. 
It sounds like you are very much attuned to treating your 
colleagues and those who work at the NRC the way you would want 
to be treated. That is critically important.
    I have reminded the Commissioners, as Commissioner Svinicki 
will tell you, any number of times that if it isn't perfect, 
make it better. Everything we do, I think everything we all do 
we can do better, and that certainly includes the operation of 
our nuclear power plants in this country.
    Finally, if you think you are right, you know you are 
right, don't give up, and you sound like a person who doesn't 
give up.
    The last thing I want to say, if you are confirmed, two out 
of the five Commissioners will have MIT ties. We want to 
express our thanks to MIT for preparing and sharing both you 
and Dr. Apostolakis with all of us.
    Thank you.
    Senator Boxer. We turn to Senator Alexander.
    Senator Alexander. Thank you, Madam Chairman.
    Dr. Macfarlane, seeing you and your family sitting there, 
we welcome them. It reminds me of about 20 years ago I was in 
the same spot. I had been nominated by the first President Bush 
to his cabinet, and Senator Metzenbaum from Ohio looked at me 
and said, Senator Alexander, or he said Governor Alexander, I 
have heard a number of disturbing things about your background, 
but I don't think I will bring them up now. And Senator 
Kassenbaum looked over and said, Well, Howard, I think you just 
did. I don't intend to do that to you because I haven't heard 
such things, but we welcome you and welcome your family.
    And Commissioner Svinicki, we welcome you and thank you for 
a great job.
    I won't go into the management issue; Senator Carper did. I 
share his attitude and his concern, and would expect you and 
your colleagues to address that. Let me begin with specific 
questions.
    Dr. Macfarlane, you served on the bipartisan commission on 
waste. I am not going to ask you, either of you, whether you 
are for or against Yucca Mountain. Let's put that over here for 
a moment. I imagine you will get a question or two about that. 
I am not asking that.
    Whether one is for or against Yucca Mountain, whether one 
is--do you agree with the Commission's suggestion that we 
should move ahead to break the stalemate on disposal of used 
nuclear fuel by, No. 1, beginning to identify consolidation 
sites to which to move fuel from the sites around the country, 
and two, begin to find a repository, since even if we were to 
open Yucca Mountain, we would still need a second geologic 
repository? Do you believe it is prudent to move ahead on 
parallel tracks with both of those activities?
    Dr. Macfarlane.
    Ms. Macfarlane. Senator Alexander, thank you very much for 
that question. Again, I remind myself that the Nuclear 
Regulatory Commission's mission is that of regulating human 
health and safety. Again, putting on my Blue Ribbon Commission 
hat, I wholeheartedly agree with both of those statements. I 
have always been a very strong proponent of geologic 
repositories.
    Senator Alexander. But we could move ahead with the 
consolidation sites----
    Ms. Macfarlane. Absolutely.
    Senator Alexander [continuing]. While we also----
    Ms. Macfarlane. Absolutely. There is ample need to do so, 
because we have 10 shutdown reactors in this country at 9 
facilities, and it makes both economic and security sense to 
consolidate that material at a few locations.
    Senator Alexander. Commissioner Svinicki, the Nuclear 
Regulatory Commission would certainly have a role on the moving 
ahead on those parallel tracks, with licensing both of sites 
and of transportation. Do you agree that we should move ahead 
on parallel tracks?
    Ms. Svinicki. Both previous law and initiatives on 
consolidated storage and the proposals that I have heard from 
congressional committees regarding future activities I believe 
would have the NRC license those consolidated storage sites, 
so, yes, NRC would have an involvement in that activity.
    Senator Alexander. And Commissioner Svinicki, do you 
believe that the legislation with which you may be familiar, 
that Senator Feinstein and I have introduced, which would begin 
a pilot program on the consolidation sites, now in the 
Appropriations bill, and the steps that we are taking with 
Senator Bingaman and others, begin to take the form of a plan 
that would help the Commission on its waste confidence rule in 
light of recent court decisions?
    Ms. Svinicki. The Commission has not taken a position, at 
this time, on that legislation, Senator Alexander, but the 
Commission has indicated that as long as this fuel is at the 
sites it is at now, it is our highest priority, of course, to 
make sure that it is stored safely, and the Commission also 
indicated that it is not a policy preference that the fuel 
remain at dispersed locations.
    Senator Alexander. Thank you. Now, I have two more 
questions, so I will ask for short answers, if I may.
    Dr. Macfarlane, small modular nuclear reactors, the 
Tennessee Valley Authority and the Oak Ridge Laboratory, for 
example, have expressed an interest to the Department of Energy 
on siting one there; Sandia National Laboratory has expressed 
the same. The Congress has approved the beginning of a 5-year 
jump-start program for small reactors. If you were Chairman of 
the Commission, would you assign a priority to the Commission's 
role in creating an environment where we could move ahead with 
small nuclear reactors?
    Ms. Macfarlane. If confirmed and then designated as Chair, 
I would certainly be interested in learning more about the 
Commission's role vis-a-vis small modular reactors. I know a 
little bit about them technically from my own background and I 
think they are very interesting. I would look forward to seeing 
license applications and seeing how they go.
    Senator Alexander. Well, do you support the idea of moving 
ahead with them?
    Ms. Macfarlane: Excuse me?
    Senator Alexander. Do you support the idea of moving ahead 
with small nuclear reactors?
    Ms. Macfarlane. Small modular reactors? Certainly.
    Senator Alexander. Commissioner Svinicki.
    Ms. Svinicki. Senator, in my service on the NRC, I have 
supported activities that would prepare the NRC to receive 
designs for review of small modular reactors so that if vendors 
decide to proceed, the NRC would be in a state of readiness to 
have in place the requirements and framework to review those 
applications.
    Senator Alexander. Thank you very much.
    I will submit a question about MOX fuel in writing, but let 
me ask Dr. Macfarlane in my remaining 22 seconds. I would like 
to get an idea of your attitude about nuclear power in general, 
and maybe a good way to ask it would be this: As you look 
ahead, do you see nuclear power as a source of electricity as a 
significant share of the United States' ability to produce 
reliable, clean, low cost electric power?
    Ms. Macfarlane. Currently, the U.S., as I think maybe 
yourself or one of the other Senators pointed out, gets 20 
percent of its electricity from nuclear power. That number is 
not going to go down for a while, but it could go down. I 
certainly think it is very important for this country, for the 
security of the country that we have a diverse energy supply, 
and nuclear is part of that diversity, certainly.
    Senator Alexander. Thank you very much, Madam Chairman.
    Senator Boxer. Thank you, Senator.
    Senator Sanders.
    Senator Sanders. Thank you. Before I begin, if I may say to 
Senator Alexander, you talked to nuclear power being low cost. 
To the best of my knowledge, in terms of the production of new 
electricity, nuclear power is the most expensive form of new 
generation.
    Senator Alexander. Madam Chairman, I will look forward to a 
private discussion with Senator Sanders, and I would love to 
present him with the National Academy of Sciences study that 
shows just the reverse. And the windmills that you like and I 
don't are much more expensive.
    Senator Sanders. OK.
    But to the Commissioners, let me start off with Dr. 
Macfarlane.
    Doctor, I have expressed concern with the NRC voting 
process, and I think you and I discussed this when you were in 
my office, which does not include a public meeting where 
Commissioners meet to vote yes or no and explain their vote. I 
have no problem with Commissioners continuing to use the 
notation vote process, whereby each drafts an opinion and 
reconciles it to provide a majority opinion and orders to the 
staff, but I see no logical reason why the NRC cannot also have 
a public voting meeting so that the American people can see 
what the NRC is doing, is not doing, and how the members feel 
about a given issue.
    We, in fact, have been talking about this issue for a 
number of years, and I think it is time to move. And in fact, 
if I do not see changes at the NRC in terms of the voting 
process, I am going to offer legislation to mandate that that 
happen.
    So my question to you, Dr. Macfarlane, will you commit 
today that for the next vote that the NRC conducts, if you are 
appointed Chairman, you will hold a public voting meeting where 
staff can present the issue, and each Commissioner can vote yes 
or no in public and explain his or her vote? Can I have that 
commitment?
    Ms. Macfarlane. Thank you for your question, Senator. We 
did have a discussion about this when we met. I certainly 
commit to being as transparent as possible, as transparent as I 
can be at the Commission, if confirmed. At the moment, I am 
still learning about the voting practices and procedures at the 
NRC, and I would like to learn more about the history of voting 
practices at the NRC to better understand the options for 
internal Commission procedures.
    Senator Sanders. Well, let me----
    Ms. Macfarlane. And in an effort to maintain collegiality, 
before any changes are made to current voting processes, I 
would like to consult with the other Commissioners to 
understand their thoughts on this process.
    Senator Sanders. Well, let's consult with Commissioner 
Svinicki. Let me ask her this question.
    Commissioner, in you written testimony to this Committee 
you describe openness a key principle for good regulation, and 
I certainly agree with you. But as you know better than I do, 
the NRC voting process is anything but open or transparent. In 
fact, it is extraordinarily opaque and complicated. It makes it 
difficult for the average citizen to understand what is going 
on at the NRC. It begins with a staff paper offering 
recommended actions, then each of the five Commissioners votes 
via a detailed statement, and somehow a majority opinion is 
cobbled together, and then in yet another document orders are 
given to staff to carry out the result.
    Now, right here, for better or for worse, every member of 
the U.S. Senate has to raise his or her hand and vote yes; we 
vote no; very rarely people vote present. But everybody in our 
home State in America knows how we vote on an issue. So I don't 
think it is complicated.
    My understanding, Commissioner Svinicki, is that Chairman 
Jaczko, in fact, requested that the NRC hold a public holding 
meeting, that he made that request to the Commission. Did you 
agree with that request?
    Ms. Svinicki. I am trying to recollect what specific voting 
matter that might have been. It might have been--well, I would 
rather check my record; I am not remembering. I know that 
Chairman Jaczko was in favor of modifying the Commission's 
voting practice.
    Senator Sanders. Right. He had the wild and crazy idea 
that, in a democracy, maybe the people of America might know 
how you voted. So let me ask you that. I happen to agree with 
Jaczko on that. Will you--I didn't get a clear answer from Dr. 
Macfarlane, but will you be supportive of an open and 
transparent public vote so that Members of the Senate, the 
American people, know how you vote?
    Ms. Svinicki. Senator, the notation, written notation 
voting process that you referred to, my views are appended to a 
vote that is made public on the NRC's Web site, so if I 
understand your proposal, it would be in addition to the 
release of----
    Senator Sanders. I am asking for the radical idea that you 
raise your hand in public, and tell the American people whether 
you voted yes or no on that issue. You don't do that now. Can 
you give us assurance that you will support that process?
    Ms. Svinicki. Again, my votes are made public. I think they 
have been quoted to me by members of this Committee. So I have 
supported the written notation process. I benefited, when I 
came on the Commission, from being able to read the written 
votes of prior Commissioners to learn the history of issues.
    Senator Sanders. OK, you are telling me no, in fact. I 
mean, I can write a 12-page analysis of how I feel on an issue 
and know how to do it without allowing the people to know 
really whether I am voting yes or no, and that is really what 
goes on in the NRC. And I would hope that regardless of 
political persuasion, we would want our constituents back home 
to see a yes and no vote. We don't have that now. If we don't 
get it, and it sounds to me like we are not going to get it, I 
will offer legislation to mandate that, and I hope I can have 
bipartisan support for that.
    Senator Boxer. Your time has expired.
    Senator Sanders. Oh. Thank you, Madam Chair.
    Senator Boxer. Senator Sessions.
    Senator Sessions. Thank you, Madam Chairman.
    Dr. Macfarlane, let me first say how much I enjoyed talking 
with you. I appreciated that opportunity yesterday. I would 
like an actual answer for these questions. What experience and 
technical expertise do you have concerning reactor safety? I 
know that you have a doctorate in geology, which can be helpful 
with regard to waste disposal or plant sitings, but the actual 
operation of a nuclear plant, what experience have you had or 
technical expertise?
    Ms. Macfarlane. My expertise is on the back end of the 
nuclear fuel cycle, so that does deal with part of what nuclear 
power plants produce, which is spent nuclear fuel, which is at 
reactor sites. So part of my expertise has to do with that. I 
think that, in general, as well as you pointed out, seismic 
issues are important not just for plant siting, but for plant 
operation, as we saw in terms of what happened in Japan.
    Senator Sessions. With regard to the 4,000 employees, the 
Chairperson is given some supervisory power. What is the 
largest organization you have ever managed?
    Ms. Macfarlane. I have managed different committees within 
academia, and I have been Chair of boards, on different boards, 
but there have not been 4,000 people.
    Senator Sessions. Well, the NRC budget exceeds $1 billion 
annually. What is the largest budget you have ever overseen?
    Ms. Macfarlane. It has been smaller.
    Senator Sessions. Have you received funding, directly or 
indirectly, from the Department of Energy or the Nuclear 
Regulatory Commission, or other Federal agencies, related to 
Yucca Mountain?
    Ms. Macfarlane. No, I have not.
    Senator Sessions. Have you received funding, directly or 
indirectly, from any organizations opposed to the Yucca 
Mountain facility?
    Ms. Macfarlane. No, I have not.
    Senator Sessions. Six months ago, Senator Kirk and I, 
joined by seven colleagues, wrote to Chairman Jaczko urging him 
to ensure that all documents and files related to the Yucca 
project be preserved and kept available for future 
decisionmakers. Would you agree it would be prudent for the NRC 
and the Energy Department to maintain and preserve the work 
that has been done on the Yucca project?
    Ms. Macfarlane. Speaking as a scientist? Absolutely. There 
is a wealth of scientific knowledge there. It is important.
    Senator Sessions. I know you have expressed your view in a 
hearing, I believe one called by maybe Senator Reid, that there 
was a lack of political support for the Yucca site. Certainly, 
there have been objections in Nevada to that site, but are you 
aware that the Board of County Commissioners of Nye County, the 
third largest county in the United States, issued a resolution 
last year or wrote the Blue Ribbon Commission to say that 
``strong local community support for Yucca Mountain exists at 
the host county level''?
    The letter also states, ``that their own research convinces 
us that the science embodied in DOE's license application for 
Yucca Mountain and its hundreds of supporting documents is 
sound.'' They write that the Yucca repository has been 
``hijacked by the politics of a single powerful Senator and 
what some view as complicity by the NRC Chairman.''
    Of course, the then-NRC Chairman had formerly worked for 
perhaps that Senator, and I don't mind saying it is my friend, 
Senator Reid, the majority leader, I am sure they were 
referring to.
    So do you agree that while there is opposition in Nevada, 
that at least the people in this large county, where the site 
would be, are supportive?
    Ms. Macfarlane. As commissioner with the Blue Ribbon 
Commission, I had multiple opportunities to interact with the 
people from Nye County and from the other counties in Nevada 
who came to many of the meetings, so we had opportunities to 
talk. I was aware of their views.
    Senator Sessions. Have you provided the Committee with all 
the articles you published and writings?
    Ms. Macfarlane. I provided them with a long list of all the 
articles and writings that I have done.
    Senator Sessions. No, the question would be have you 
provided the Committee with a list of all your articles and 
published writings.
    Ms. Macfarlane. Yes.
    Senator Sessions. And does that include speeches that you 
have made?
    Ms. Macfarlane. I do believe, yes, I included all the 
speeches as well.
    Senator Sessions. Commissioner Svinicki, congratulations on 
receiving the 2012 Presidential citation a few weeks ago by the 
American Nuclear Society. That is quite an honor, and you 
should be congratulated for it. I think it does reflect well on 
your abilities.
    My time is up. Thank you, Madam Chair.
    Senator Boxer. Thank you, Senator.
    Senator Sessions. You have been very gracious.
    Senator Boxer. Thank you, Senator.
    Senator Cardin.
    Senator Cardin. Thank you, Madam Chair.
    Dr. Macfarlane, first, let me congratulate you on your good 
judgment. I know that you grew up in Connecticut, but you now 
live in Maryland, so I wanted to point that out to the 
Committee.
    Ms. Macfarlane. Finally figured it out.
    Senator Cardin. Right. Congratulations on that.
    I want to follow up on Senator Alexander's point on the 
storage issues.
    And I understand both of your positions as it relates to 
regional facilities or for depositories, and I understand that. 
That can take some time, as we all know, before they are 
implemented. So I want to get your thoughts on onsite storage 
as it relates to the safety issues as to the advisability and 
long-term use of onsite storage, and your views as to how that 
relates to the work of the Commission. I will let you start.
    I will ask some specific questions. There are some trade 
offs, obviously, the trade offs on transportation, the trade 
offs of risk at a regional or at a national depository; there 
are the issues of how safe different regions of the country 
have different risks. We know that certain areas may have more 
weather related concerns than other areas.
    How would you go about dealing with the storage issue as it 
relates to your responsibilities on a long-term need to do 
storage onsite?
    Ms. Macfarlane. Would you like me to start?
    Senator Cardin. Either one.
    Dr. Macfarlane, you may start.
    Ms. Macfarlane. OK. Thank you. Thank you for the question. 
I, as a safety regulator, if confirmed, my main concern would 
be ensuring the safety of the storage onsite at reactors. Let's 
limit it to just onsite at reactors right now. Reactors need 
spent fuel pools. You cannot operate a light water reactor 
without a spent fuel pool, because when the fuel is discharged 
from the reactor, it is both thermally and radioactively hot; 
it needs that 40-foot-deep swimming pool to sit in and have the 
water circulated around so it remains cool. After 5 years, 
though, it has cooled off enough that you can actually put it 
in what we call a dry cask. There are a number of different 
designs, but they are mostly concrete and steel structures 
which are passively cooled.
    So you don't need the dry casks, but you can use them, but 
you do need that spent fuel pool. And we know, in terms of 
safety from recent experience with dry casks both at the 
Japanese facility in Fukushima and the one in Virginia at North 
Anna, where there was an earthquake last summer, you guys might 
recall, those dry casks performed very well, so I think they 
are safe. But I think understanding how they behave over the 
long term is important to ensure their security. And also 
continuing to work on the safety and security of spent fuel 
pools is important as well.
    Senator Cardin. So are you saying that from a long-term 
perspective the dry cask storage, is it an acceptable option, 
or do we need to move forward on regional or national 
depositories?
    Ms. Macfarlane. From my point of view, we absolutely need 
to move forward on national repositories. Those dry casks are 
fine on the decades time scale. If you are talking hundreds or 
thousands of years, there is no long-term guarantee; you need 
some kind of deep geologic repository.
    Senator Cardin. Which is worth the risk of transportation 
and a centralized site, I take it?
    Ms. Macfarlane. I believe so.
    Ms. Svinicki. Senator Cardin, within its regulatory 
authorities, the Commission has been focused on making certain 
that either the pool storage or the dry cask storage, if fuel 
remains at sites for some longer duration of time, can be done 
safely. The Commission has assessed that it has all the 
regulatory authority that it needs in order to put in place 
requirements to make sure that that continues to be the case. 
But as I noted earlier, the Commission, in offering that 
assurance of continued safety, indicated that it was not to be 
interpreted as a policy preference, that leaving fuel dispersed 
at different sites was preferable from a policy standpoint. 
Clearly, that is not the preferred policy.
    Senator Cardin. Thank you.
    Thank you, Madam Chair.
    Senator Boxer. OK. I have just been notified we are going 
to have two votes at noon, so in order to give everybody a 
chance, we are just going to have to go down to 3 minutes 
apiece. I do deeply apologize.
    Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chairman.
    Just a couple quick questions. Dr. Macfarlane, my home 
State of Wyoming, and I know you are taking notes, has an 
abundance of domestic uranium. Permitting of these sites has 
met with a lot of bureaucratic delay and red tape. These sites 
are good paying American jobs for folks in my State, other 
States where uranium is found. Do you believe that domestic 
uranium production is preferable to being dependent on 
importing foreign uranium from countries like Russia?
    Ms. Macfarlane. First of all, I should say that I think 
Wyoming is one of the most beautiful States in the union. That 
aside, the job, again, of the Nuclear Regulatory Commission is 
to assure safety and security, not to opine on policy 
positions. But given that and my past views on things, 
certainly it is important for the United States to have as 
diverse a supply of energy as possible, and to have as much 
domestic supply as possible as well.
    Senator Barrasso. What assurances can you provide the 
Commission that you will not unduly delay Commission decisions 
or ensure that all the perspectives and opinions of your 
colleagues are dealt with in a respectful and timely manner?
    Ms. Macfarlane. I assure you wholeheartedly.
    Senator Barrasso. Thank you.
    Commissioner Svinicki, you have had a number of questions 
asked to you today. I just wonder if there are comments you 
would like to make to the Committee to kind of tie together or 
answer some of the charges that may have been made by others.
    Ms. Svinicki. I would reflect that, again, I was privileged 
to be a Senate staff person for a long time. I have tremendous 
respect for the Senate's unique role under the Constitution to 
review President Obama's nomination of me, and I know that I 
have not achieved universal agreement in my actions and 
positions I have taken on the Commission. I am very respectful 
that there are differing views. I think, as Dr. Macfarlane has 
indicated, it is not an expectation that everyone agree with 
everyone. So that standard was probably not within my reach, 
but I have worked to assess issues based on the facts in front 
of me, and I have attempted to fulfill my duty in that way. 
Thank you.
    Senator Barrasso. Thank you.
    Thank you, and congratulations to both of you.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you, Senator, so much. I really do 
apologize for the 3 minutes.
    Senator Lautenberg.
    Senator Lautenberg. Thanks very much, Chairman. Sorry, I 
had to leave for a few minutes, but I appreciate the 
opportunity to get a couple of questions in.
    For Dr. Macfarlane, it is critical that we apply the 
lessons of the Fukushima disaster to improve nuclear safety 
here at home. One of those lessons is ensuring that containment 
vents work properly and are filtered to prevent the release of 
radiation. Now, would you support the requiring of filtration 
of containment vents where appropriate?
    Ms. Macfarlane. Thanks for that question, Senator. I 
understand that the Nuclear Regulatory Commission is actually 
looking into that specific issue right now, and I would, if 
confirmed, be very interested in the results of their analysis. 
I am somewhat familiar with the issue, so I would be very 
interested to learn more. I will definitely follow that issue.
    Senator Lautenberg. And Commissioner Svinicki, you said 
that you don't believe that U.S. power plants should be 
required to install filtered containment vents. These systems 
could prevent the release of radiation into the atmosphere in 
the event of a nuclear accident. Why do you oppose taking this 
precautionary step?
    Ms. Svinicki. Senator Lautenberg, I believe I was asked 
about that, my support for that in a speech in March, and what 
I indicated was that I had not been provided any analysis to 
date that would support or make the case for installation of 
filtered vents. As Dr. Macfarlane indicated, the NRC staff is 
preparing an evaluation of that issue now, and later this 
summer that issue will come before the Commission.
    Senator Lautenberg. But you are, therefore, not committed 
to say no to that.
    Ms. Svinicki. I will review with a very open mind the 
staff's evaluation of this issue.
    Senator Lautenberg. In March, Dr. Macfarlane, I sent a 
letter raising concern that the NRC was not allowing public 
comments at the annual meeting for the Oyster Creek Plant in 
New Jersey. I think that local residents deserve to have their 
voices heard on these issues. If you are to be the NRC Chair, 
would you try to make sure or work to try and bring the public 
into the discussion and increase their participation?
    Ms. Macfarlane. Thanks for the question, Senator. I am very 
dedicated to hearing all sides and all points of view on all of 
these topics, and my experience as a commissioner with the Blue 
Ribbon Commission was that we were most successful when 
everybody felt that they were heard.
    Senator Lautenberg. One more question, Dr. Macfarlane. You 
were a member of the President's Blue Ribbon Commission. They 
made a number of proposals that would require transporting 
significant amounts of nuclear waste across the country. What 
steps might be taken to protect the communities that live near 
the railroads and the highways where nuclear waste will be 
transported?
    Ms. Macfarlane. Wow, that is a long answer question. There 
are many steps that could be taken, and the Blue Ribbon 
Commission did specifically look at the issue of transportation 
and re-look at the issue of transportation and suggested that 
there is actually a lot of work that can be done now because 
there are a lot of issues that have to do with rail----
    Senator Lautenberg. So they can be transported safely, in 
your opinion?
    Ms. Macfarlane. Yes. Yes, absolutely. And they are in many 
other countries.
    Senator Boxer. Can I ask if you would put something in 
writing about that for us?
    Ms. Macfarlane. Sure.
    Senator Boxer. Because I am very interested in this.
    Senator Lautenberg. Thanks, Madam Chairman.
    Senator Boxer. Yes.
    And now the votes have started. We call on Senator Boozman.
    Senator Boozman. Thank you, Madam Chair.
    And thank both of you for being here. We appreciate your 
willingness to serve, Dr. Macfarlane, and we also appreciate 
your service, Commissioner Svinicki, and your willingness to 
get back into this.
    Dr. Macfarlane, the question has come up about trying to 
get our safety issues resolved in 5 years, and we are all part 
of the bureaucracy up here. What do you see as some of the 
pitfalls in actually getting that done? I assume that you are 
committed to doing that in 5 years, but what is lurking out 
there that you see that might be a problem? I have road 
projects that have taken longer than that to get approval.
    Ms. Macfarlane. Certainly. Thank you for the question, 
Senator. I am still learning exactly all of the different 
aspects of what the NRC is planning to do and has requested of 
the licensees. I understand that it will take two outages to go 
through and fulfill the orders that have been issued. These 
outages occur every 18 to 24 months, and that is part of this 
5-year timeframe. The first outage to try to understand, 
especially with placing hardened vents, where they could be 
placed and how they would be done, and then the second outage 
with actually doing it. So that is part of it. So those are 
some of the issues.
    Senator Boozman. The former Chairman used tactics like 
simply not voting or delaying votes on decisions with licensing 
and things for plants. Can you assure us that you won't use 
those kind of tactics?
    Ms. Macfarlane. Certainly.
    Senator Boozman. Thank you very much.
    I yield back.
    [The prepared statement of Senator Boozman follows:]

                    Statement of Hon. John Boozman, 
                U.S. Senator from the State of Arkansas

    Madam Chair, thank you for holding this hearing. President 
Obama has re-appointed Commissioner Svinicki to the NRC, and 
this is our first opportunity to visit with Dr. Macfarlane. I 
appreciate the willingness of both of these individuals to 
serve.
    My understanding--and this has been misreported--is that 
both nominees are simply nominated to positions on the 
Commission. The appointment of a Chair for the NRC is made 
exclusively by the President, and that is a decision the 
President will have to make once the current Chairman is 
retired.
    This nomination process is limited to whether these two 
nominees are appropriate and qualified to serve on the 
Commission, not whether either of them would be best suited to 
serve as Chair of the Commission. My vote will be made in that 
context. I hope the President will choose the best prepared and 
most qualified Commissioner to serve as Chair, when the time 
comes. The Chairman must provide administrative leadership to 
an organization with a massive budget and over 4,000 employees. 
Experience matters.
    Madam Chair, again thank you for this hearing. I believe we 
need to have five active and engaged Commissioners, overseeing 
the important work of the agency. I hope the Senate will do its 
work quickly, because we do not want vacancies to impact the 
work of the Commission.
    Thank you.

    Senator Boxer. Thank you so much.
    Senator Gillibrand, welcome.
    Senator Gillibrand. Thank you.
    Obviously, we have had many lessons learned because of the 
Fukushima accident, and two things that I am particularly 
concerned of for New York that I would like your thoughts on. 
First, in the area of exemptions, license amendments, and 
renewals and waivers, given that we give licenses for up to 20 
years, given that many waivers and exemptions have been given, 
and given that technology is improving very rapidly, have you 
given any consideration to re-looking at these current rules 
and guidelines in terms of timing, because I think, given what 
we have learned from Fukushima, we may want to have license 
renewals have shorter time periods; we may want to create a 
mechanism whereby waivers can be re-looked at, given what we 
have learned.
    Second, with New York specifically, we have Indian Point, 
and I know, Dr. Macfarlane, you have some expertise in geology. 
Do you plan to look at things like potentially active fault 
lines; what the risks are, what can be done to protect these 
existing sites?
    And then last, also highly relevant to the New York issue, 
have you given consideration to re-looking at issues of 
evacuation for large scale populations, making sure that there 
is such a plan for that kind of large evacuations if there is 
some damage or emergency situation?
    Ms. Macfarlane. Thank you for the questions, Senator. In 
terms of license renewals, et cetera, I think that is very 
important to periodically review lessons learned from the 
process, and I believe that the Nuclear Regulatory Commission 
has done this and is doing this in that case.
    In terms of Indian Point and assessing seismic risks, there 
has been a new seismic hazard analysis that the U.S. Geological 
Survey has issued. I think it is important for all reactors to 
go and assess the new analysis, and I would certainly be 
interested in following that issue vis-a-vis reactors, and 
specifically with Indian Point in mind.
    And then in terms of looking at the issues around 
evacuating people, thinking about Indian Point, I do believe 
that under the activities that the NRC is undertaking regarding 
the Fukushima accident, that they are reconsidering the 
emergency planning zones and looking at that as well, and I 
would definitely follow that up as well.
    Ms. Svinicki. Senator, I don't have too much to add to what 
Dr. Macfarlane said except that as a specific action post-
Fukushima, all nuclear power plants, including Indian Point, 
have been ordered to do a seismic reevaluation. So that 
requirement has been imposed by the Commission. And again, as 
Dr. Macfarlane said, the evacuation and emergency planning 
issues are also under reevaluation by the NRC staff.
    Senator Gillibrand. Thank you very much.
    Senator Boxer. Thank you, Senator.
    So I am going to just close with a couple of points and 
then rush off. So if I don't thank you both, I will now do 
that. There is something I need to do in order to make sure 
that these nominations go forward. Would you both be ready to 
answer these questions: Do you agree, if confirmed, to appear 
before this Committee or designated members of this Committee 
and other appropriate committees of the Congress and provide 
information subject to appropriate and necessary security 
protection with respect to your responsibilities? Answer yes or 
no.
    Ms. Macfarlane. Yes.
    Ms. Svinicki. Yes.
    Senator Boxer. Do you agree to ensure the testimony, 
briefings, documents of electronic and other forms of 
communication of information are provided to this Committee and 
its staff and other appropriate committees in a timely manner?
    Ms. Macfarlane. Yes.
    Ms. Svinicki. Yes.
    Senator Boxer. Last, do you know of any matters which you 
may or may not have disclosed that might place you in any 
conflict of interest if you are confirmed?
    Ms. Macfarlane. No.
    Ms. Svinicki. No.
    Senator Boxer. All right. The record will show those 
answers.
    Senators, questions are due at noon tomorrow. Nominees' 
answers are due Monday at noon. We are trying to move this 
forward.
    So my couple of last parting questions are--I asked my 
staff to put together a list of what does this nuclear waste 
contain. Now, Chairman, you are expert at this, Chairman-to-be, 
and Commissioner, I know you are an expert at this, too, so I 
looked at some of the half-lifes here, and they said, well, 
Neptunian-237 has a half-life of 2.1 million years, and 
plutonium-237 has a half-life of 24,100 years. Would you agree 
with this, and do you agree that when you are dealing with this 
waste it is very, very serious business?
    Commissioner.
    Ms. Svinicki. Yes, Chairman.
    Ms. Macfarlane. Yes.
    Senator Boxer. All right. I have two more points. After the 
Three Mile Island accident, the NRC Chairman's duties were 
really changed, and they were strengthened, and the Chairman 
became not only known as the Chairman, but the principal 
executive officer of the Commission who directs ``the day to 
day operation of the agency and the NRC's response to nuclear 
emergencies.'' Are you aware of this law?
    Ms. Svinicki. Yes, Chairman.
    Senator Boxer. OK. And will you respect the role of the 
Chairman?
    Ms. Svinicki. Yes, I will.
    Senator Boxer. Even when she may not agree with you?
    Ms. Svinicki. Yes, absolutely.
    Senator Boxer. And when she does agree with you?
    Ms. Svinicki. Yes.
    Senator Boxer. And I would ask our hopefully future 
Chairman, if reconfirmed, do you understand this authority, and 
will you exercise it if necessary?
    Ms. Macfarlane. Absolutely.
    Senator Boxer. Because I think that is key. There was such 
a confusion over that after Fukushima, and the arguments went 
back and forth.
    The last point is I am really glad Senator Inhofe put page 
33 of Commissioner Svinicki's answers to me about Yucca into 
the record because here it goes:
    Senator Boxer: So you didn't work directly on Yucca? 
Answer: I did not.
    I don't believe that is true. When I don't vote for you, 
Commissioner, it is because I have reasons that go with my view 
of your candor or lack of same, and also the record in terms of 
safety. I hope and I truly pray that this Commission, with your 
leadership and yours, can get off in a different direction. We 
can have the deepest divisions of opinion. This is America; 
that is what we are known for. We don't agree on things, but we 
have decent relationships with each other.
    And I just really want to underscore that. As one day we 
had all the Commissioners here and the Chairman, and I said you 
should all go out after work and have a beer, soda, something; 
and they all looked at me like what planet was I on for that to 
even be possible. That has to be possible. It could be tea or 
coffee. It could be anything. But you get my point.
    So, Dr. Macfarlane, you are walking into a tough situation, 
but honestly, after meeting with you and watching you here 
today, I sense in you the ability to bring people together, and 
I know as a mom myself, you have to do that a lot around the 
house, as well as in the workplace. So I think you are going to 
bring a different touch. I think it is necessary.
    And I would say, Commissioner Svinicki, I hope, as a long-
time member of this Commission and despite my opposition, I 
know that you are going to be confirmed, I hope you will do 
your best to help our new Chairman find her way. And if there 
is disagreement, let's not make it personal, let's not make it 
some kind of vendetta, one to the other. Let's just bring those 
disagreements out to the fore and recognize that is how this 
country is. We are great because we allow that debate. We 
certainly do it here in the Senate, and we can go out for a cup 
of coffee afterwards.
    So I hope that will happen. I am very, very pleased that 
you are both here today, that we had such an important hearing, 
that it was so civil, and I am just feeling good today. And I 
will feel even better when we get the highway bill done.
    [Laughter.]
    Senator Boxer. Thank you very much. We stand adjourned.
    [Whereupon, at 12:11 p.m. the Committee was adjourned.]

                                 <all>
</pre></body></html>
